Report No. D2007-065        March 2, 2007




       Controls Over the Prevalidation
       of DOD Commercial Payments
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
ACL                   Audit Command Language
ACRN                  Accounting Classification Reference Number
ARN                   Authorization Request Number
AWCF                  Army Working Capital Fund
CLIN/SLIN             Contract Line Item Number/ Sub-Line Item Number
DEAMS                 Defense Enterprise Accounting and Management System
DFAS                  Defense Finance and Accounting Service
ERP                   Enterprise Resource Planning
EUD                   Elimination of Unmatched Disbursements
FADA                  Financial Accounting Data Abstract
FFMSR                 Federal Financial Management Systems Requirements
FMR                   Financial Management Regulation
GAO                   Government Accountability Office
GFEBS                 General Fund Enterprise Business System
GLAC                  General Ledger Account Code
JFMIP                 Joint Financial Management Improvement Program
LMP                   Logistics Modernization Program
MOCAS                 Mechanization of Contract Administration Services
NULO                  Negative Unliquidated Obligation
OMB                   Office of Management and Budget
ULO                   Unliquidated Obligation
UMD                   Unmatched Disbursement
                  Department of Defense Office of Inspector General
Report No. D-2007-065                                                     March 2, 2007
  (Project No. D2005-D000FI-0164.000)

                            Controls Over the Prevalidation
                             of DoD Commercial Payments

                                    Executive Summary

Who Should Read This Report and Why? DoD personnel responsible for accounting for and
disbursing commercial payments should read this report. It discusses the internal controls
needed to match proposed disbursements with corresponding obligations before making
commercial payments.

Background. DoD accounting and disbursing officials are responsible for ensuring that DoD
organizations spend funds according to the purposes and limitations established by Congress.
In 1994, DoD officials and Congress recognized that problems existed in properly matching
disbursements with corresponding obligations. As a result, Senator Charles Grassley proposed
an amendment to the FY 1995 DoD Appropriations Act that required DoD to match proposed
disbursements with corresponding obligations before making payments (referred to as
prevalidation). Every year since then, Congress has amended the annual DoD Appropriation
Act to require prevalidation. In 1996, to comply with Senate Report No. 104-286, which
accompanied Public Law 104-208, “DoD Appropriations Act, FY 1997,” DoD developed and
implemented plans to prevalidate commercial payments. Prevalidation ensures that DoD
organizations have recorded obligations properly in an official accounting system and reserved
sufficient funds in accounting records to cover the proposed disbursement. The prevalidation
of proposed disbursements should reduce DoD problem disbursements, avoid costly contract
payment reconciliations, and provide accurate financial information to managers.

Results. Since 1995, DoD has made progress in prevalidating commercial payments and
reducing problem disbursements. However, effective internal controls were not in place to
ensure that DoD matched each commercial payment request to the corresponding obligation
and that, once prevalidated, the disbursement transaction correctly posted in the official
accounting records without manual intervention. As a result, errors detectable during the
entitlement and prevalidation processes continued to occur, compromising the benefits of the
prevalidation process. An effective prevalidation process could have reduced some of the more
than $18.8 million spent by the Defense Finance and Accounting Service (DFAS) and its DoD
customers to correct and reconcile contract payment data. DoD needs to update its
prevalidation plan to provide time frames for achieving the prevalidation of all commercial
payments and accounting adjustments. DoD management must also implement policies to
standardize contract billing and payment instructions and require prevalidation at the contract
line item number/sub-line item number level. DFAS must work with the Military Departments
and improve internal controls over the prevalidation process by ensuring data integrity,
developing a single source for obligation data, and ensuring that financial managers have
recorded all obligations in the official accounting systems within 10 days. DFAS needs to
review prevalidation as part of its self assessment, require certification officials to review
entitlement records for accuracy and completeness before attempting prevalidation, and
develop the system functionality to perform root cause analyses and reverse canceled
transactions (finding A).

The Army failed to correct its long-standing weaknesses in matching obligations with proposed
disbursements for the Army Working Capital Fund. The Army developed the Logistics
Modernization Program without the internal capability to perform the prevalidation function
directly with DoD entitlement systems, and DFAS continued to use an ineffective and
unreliable off-line database to prevalidate Army Working Capital Fund payments. In addition,
DFAS St. Louis did not identify disbursements covered by temporary obligations in the
Logistics Modernization Program as unmatched disbursements until 30 days after the system
attempted to post the disbursements. As a result, the Army could not ensure that the Logistics
Modernization Program complied with Federal Financial Management System Requirements
for matching obligations to disbursements and continues to incur additional costs to research
and reconcile disbursements that cannot post correctly. The Army also understated the
reported value of unmatched disbursements. The Deputy Under Secretary of Defense for
Business Transformation and the Army Program Executive Officer, Enterprise Information
Systems must take steps to ensure that new core financial systems have the interfaces to
perform prevalidation at the contract line item number and sub-line item number level. DFAS
must ensure that the Logistics Modernization Program can match payments to corresponding
obligations, accomplish proper general ledger accounting, report all “ZK” transactions as
unmatched disbursements until they post to the correct corresponding obligation, and perform
root cause analyses (finding B).

DFAS managers permitted the disbursement of vendor payments without ensuring that
technicians had properly prevalidated all commercial payment requests. As a result, DFAS
could have made payments that violate the requirements of Public Law 108-287. In addition,
the risk of making erroneous payments to vendors and the need to incur additional costs to
properly post payments in the official accounting records have increased. DFAS must cease
making commercial payments that it has not prevalidated and rescind locally developed
prevalidation policies (finding C). See the Findings section for detailed recommendations.

DFAS internal controls over the prevalidation of commercial payments were not adequate. We
identified material weaknesses related to the entitlement of payments, recording of obligations,
and prevalidation of payments. See the Review of Internal Controls section and finding A for
more information.

Management Comments and Audit Response. The Acting Deputy Chief Financial Officer,
commenting for the Under Secretary of Defense (Comptroller)/Chief Financial Officer,
generally concurred with the recommendations. He agreed with the need to update the DoD
prevalidation plan and develop new time frames for prevalidating all commercial payments.
He partially concurred with the need to prevalidate accounting adjustments and provide
payment offices with detailed payment instructions. He nonconcurred with requiring
entitlement and prevalidation of each payment to the contract line item number and sub-line
item number level to comply with the Standard Financial Information Structure initiative. The
Acting Deputy Chief Financial Officer’s comments were partially responsive. We disagree
with his position that no relationship exists between the Standard Financial Information
Structure and the entitlement and prevalidation of commercial payments. In order for the
DoD’s Standard Financial Information Structure to provide meaningful financial data to
managers, the payment entitlement and prevalidation process must begin to use a Demand
Unique Identifier for all disbursements.



                                               ii
The Deputy Under Secretary of Defense for Business Transformation concurred with the
recommendation to ensure future core financial systems prevalidate payments. He stated that
the Business Enterprise Architecture would include prevalidation requirements and define the
specific requirements for entitlement, Standard Financial Information Structure compliance,
and contract line item/sub-line item number level prevaliation.

The DFAS Deputy Director for Standards and Compliance, commenting for the DFAS Deputy
Director for Operations, generally concurred with the recommendations. She agreed to identify
the data fields required to properly prevalidate and post disbursement transactions, perform edit
checks, and identify recurring problems. She also agreed to the eventual use of a single source
data file to record obligation data in all financial systems, develop a reconciliation process
between entitlement and accounting systems, and correct system limitations in the
prevalidation process. In addition, the Deputy Director agreed to direct field locations to cease
making vendor payments without positive confirmation that corresponding obligations exist in
the official accounting records and rescind any contrary locally developed policies and
procedures. She partially concurred with the requirement that payment requests and
entitlement records contain all necessary information before prevalidating payment requests.
She nonconcurred with requiring lead technicians to perform the functions of certifying
officials and with reporting “ZK” transactions as unmatched disbursements until the
transactions post to corresponding detail obligations. The Deputy Assistant Secretary of the
Army (Financial Operations) concurred with the proposed DFAS action plans. The DFAS
comments were generally responsive. We disagree with the DFAS position to not require lead
entitlement technicians to perform payment certification functions. We also do not agree that
the Logistics Modernization Program system should create obligations for unmatched
disbursements without supporting obligating documents and without reporting these
disbursements as unmatched disbursements.

The Program Executive Officer, Enterprise Information Systems concurred with the
recommendation to develop system requirements and interfaces within the Logistics
Modernization Program to prevalidate DoD commercial payments. See the Findings section of
the report for a discussion of the management comments and the Management Comments
section for a complete text of the comments.

We request that the Office of the Under Secretary of Defense (Comptroller)/Chief Financial
Officer and DFAS reconsider their position and provide comments on the final report by
April 2, 2007.




                                               iii
Table of Contents

Executive Summary                                                        i

Background                                                               1

Objectives                                                               4

Review of Internal Controls                                              4


Findings
     A. Effectiveness of the Contract Payment Prevalidation Process      6
     B. Prevalidation in Future Accounting Systems                      28
     C. Vendor Payment Prevalidation Controls                           37

Appendixes
     A. Scope and Methodology                                           40
          Prior Coverage                                                41
     B. Glossary                                                        42
     C. Contract Payment Prevalidation Process                          44
     D. Data Mining Methodology                                         48
     E. Statistical Sampling Methodology                                53
     F. Sample Results                                                  56
     G. Report Distribution                                             66

Management Comments
     Under Secretary of Defense (Comptroller)/Chief Financial Officer   69
     Deputy Under Secretary of Defense for Business Transformation      72
     Department of the Army                                             74
     Defense Finance and Accounting Service                             78
Background
           DoD accounting and disbursing officials are responsible for ensuring that DoD
           organizations spend funds according to the purposes and limitations established by
           Congress. In 1994, DoD officials and Congress recognized that problems existed
           in properly matching disbursements with corresponding obligations. As a result,
           Senator Chuck Grassley proposed an amendment to Public Law 103-335, “DoD
           Appropriations Act, FY 1995,” September 30, 1994, requiring DoD to match
           proposed disbursements with corresponding obligations before making any
           payments (hereafter referred to as prevalidation). Every year since then, the
           annual DoD Appropriation Act has included the prevalidation requirement.
           Prevalidation ensures that DoD organizations have properly recorded obligations
           and reserved sufficient funds to cover the proposed disbursements in the official
           accounting records. The prevalidation of disbursements should reduce DoD
           problem disbursements, 1 avoid costly contract payment reconciliations, and
           provide accurate financial information to managers.

           The Defense Finance and Accounting Service (DFAS) processes commercial
           payments using a multitude of automated entitlement 2 systems. DoD has not
           integrated all entitlement systems with the accounting systems used to record
           obligation data. DFAS Columbus, in Columbus, Ohio, pays centrally administered
           contracts using the Mechanization of Contract Administration Services (MOCAS)
           system. DFAS vendor payment offices, located in multiple field locations, pay
           contracts not administered by the Defense Contract Management Agency and
           make non-contractual payments. Effective January 2006, the Deputy Director for
           Operations, DFAS became responsible for DFAS commercial payment operations.

           Public Law Requirements. Public Law 103-335, section 8137, required that the
           Secretary of Defense develop a plan for DoD disbursing officials to establish and
           implement a requirement to match proposed disbursements to corresponding
           obligations before making payments. It also required that, no later than July 1995,
           the Secretary of Defense match each disbursement in excess of $5 million to a
           particular obligation before making payment. Congress lowered the dollar
           threshold to:

                    •    $3 million as of June 1997, as part of Public Law 104-208, “DoD
                         Appropriations Act, FY 1997,” September 30, 1996.

                    •    $1 million as of June 1998, as part of Public Law 105-056, “DoD
                         Appropriations Act, FY 1998,” October 8, 1997.

                    •    $500,000 as of October 1, 1999, as part of Public Law 106-079, DoD
                         Appropriations Act, FY 2000,” October 25, 1999.

1
    Problem disbursements reported by DoD include unmatched disbursements, negative unliquidated
    disbursements, and aged in-transit disbursements.
2
    Entitlement is the process of preparing a payment for disbursement. It includes matching the data
    provided on the vendor invoice to the data provided on the receiving report and contract. The entitlement
    process ensures that the payment is for goods or services received in compliance with the specific contract
    terms.



                                                        1
           In Public Law 108-287, “DoD Appropriations Act, FY 2005,” August 5, 2004,
           Congress also required that DoD prevalidate disbursements valued at $500,000 or
           more in FY 2005.

           DoD Prevalidation Plans. Senate Report No. 104-286, June 20, 1996, which
           accompanied Public Law 104-208, required the Under Secretary of Defense,
           (Comptroller)/Chief Financial Officer, to direct the prevalidation of all payment
           requests 3 paid by DFAS Columbus on contracts issued on or after
           October 1, 1996. Senate Report No. 104-286 also required the Secretary of
           Defense to develop a detailed plan for matching disbursements to corresponding
           obligations for amounts below $1 million. In April 1997, DoD provided Congress
           with a plan for lowering the prevalidation dollar threshold. DoD developed one
           schedule to lower the dollar threshold for MOCAS contract payments. The second
           schedule addressed how and when to lower the dollar threshold for all other
           commercial payment systems. DoD planned to reduce the threshold to $0 for
           MOCAS contract payments by June 30, 2000. All other commercial payment
           systems were to prevalidate all disbursements by October 1, 1998. By 2004,
           DFAS Columbus had not yet begun to prevalidate all MOCAS contract payments.
           On July 12, 2004, DFAS reduced the prevalidation threshold for MOCAS contract
           payments to $10,000 for all contracts issued before FY 2005 and to $0 for all
           contracts issued after September 30, 2004.

           DoD Prevalidation Process. The prevalidation process requires that the
           commercial payment office verify that a corresponding obligation exists in the
           official accounting records for the items invoiced by a vendor before DFAS makes
           a commercial payment. At the time of prevalidation, the accounting system should
           also reserve sufficient funds to cover the payment. The following figure provides
           an overview of the prevalidation process.

            Payment            Receipt and           Contract or
            Request            Acceptance            Other Obligation
                                                     Document




                                                      Prevalidation              Accounting
                           Entitlement                 Module or                  System
                             System                      Manual
                                                         Process


                                  Sends Notice to
                                                                 Disbursement
                                  Pay Record after
                                                                    System
                                  Prevalidation

                                         Prevalidation Process Overview

3
    Payment requests as used in this report include contract payment requests and requests for financing
    payments, as well as vendor invoices.



                                                       2
The prevalidation process begins when the commercial payment office receives
evidence of the receipt and acceptance of goods and services for items invoiced by
a vendor. The commercial payment office entitles the payment request and
initiates the prevalidation process, either through use of an automated system
interface between the DoD entitlement and accounting systems or manually
between DFAS entitlement and accounting technicians at various DFAS field
accounting sites. The prevalidation process provides accounting systems with the
data needed to record or update budgetary and proprietary account entries. In
FY 2005, DFAS paid more than 14.2 million payment requests valued at about
$276 billion. See Appendix B for a glossary of technical terms used in this report.
See Appendix C for a detailed description of the contract payment prevalidation
process.

Internal Control Requirements. Government Accountability Office (GAO)
Report No. GAO/AIMD 00-21.3.1, “Standards for Internal Controls in the Federal
Government,” November 1999, provides standards for designing and applying
internal controls. Internal controls should provide reasonable assurance that DoD
achieves the following objectives:

       •   effective and efficient operations,

       •   reliable financial reporting, and

       •   compliance with applicable laws and regulations.

Office of Management and Budget (OMB) Circular No. A-123, “Management’s
Responsibility for Internal Controls,” December 2004, defines management’s
responsibility for internal controls. Internal control, organization, policies, and
procedures are tools to help program and financial managers achieve results and
safeguard the integrity of their programs.

DoD Guidance. The DoD Financial Management Regulation (FMR) provides
guidance for commercial payment entitlement, accounting, and disbursement.
DoD FMR, volume 3, “Budget Execution Availability and Use of Budgetary
Resources,” chapter 8, “Standards for Recording and Reviewing Commitments
and Obligations,” June 2005, provides budgetary guidance. The guidance states
that DoD should record an obligation in the official accounting records within
10 days of a legally binding obligation of the Government to pay for a service or
product.

DoD FMR, volume 10, “Contract Payment Policy and Procedures,” chapter 1,
“Financial Control of Vendor and Contract Payments,” March 2002, discusses
entitlement procedures. To establish internal controls that ensure that payments
are timely and accurate, managers are to create and maintain segregation of duties,
adhere to policy and procedures, ensure authentic electronic transmissions, and use
sound internal accounting and system access controls. In addition, it states that
complete, consistent, and accurate contract files and related disbursement and
accounting records are necessary to reduce the potential for Antideficiency Act
violations and minimize the number and dollar value of problem disbursements.




                                      3
           To ensure the accuracy of payments, DoD FMR, volume 5, “Disbursing Policy
           and Procedures,” chapter 33, “Departmental Accountable Officials and Certifying
           Officials,” April 2005, requires that a certifying official review all payment
           vouchers to ensure that all items listed are correct, legal, and proper for payment
           from the appropriations or funds designated.


Objectives
           The overall audit objective was to evaluate controls over the prevalidation of DoD
           commercial payments. Specifically, we evaluated actions taken by DFAS and the
           Military Departments to ensure that proposed disbursements matched the
           corresponding detail obligations and that the accounting systems reserved funding
           before making the disbursements. We determined whether prevalidated payments
           posted correctly to the accounting systems or resulted in problem disbursements.
           We also reviewed the management control program as it related to the overall
           objective. See Appendix A for a discussion of the scope and methodology and
           prior coverage related to the objectives.


Review of Internal Controls
           DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
           and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
           August 28, 1996, 4 require DoD organizations to implement a comprehensive
           system of management controls that provides reasonable assurance that programs
           are operating as intended and to evaluate the adequacy of controls. DFAS and
           DoD managers did not identify compliance with prevalidation requirements as an
           assessable unit in the payment cycle.

           We identified material internal control weaknesses for DFAS and the Military
           Departments as defined by DoD Instruction 5010.40. DFAS and the Military
           Departments did not have the following internal controls implemented for the
           prevalidation process:

                   •   supervisory reviews and entitlement system edit checks to prevent the
                       forwarding of inaccurate and incomplete entitlement records for
                       prevalidation and payment;

                   •   policies and procedures to prevent the approval of payment requests
                       and accounting adjustments before confirmation that sufficient
                       obligations exist in the accounting system;


4
    Our review of internal controls was done under the auspices of DoD Directive 5010.38, “Management
    Control (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, “Management Control (MC)
    Program Procedures,” August 28, 1996. DoD Directive 5010.38 was canceled on April 3, 2006. DoD
    Instruction 5010.40, “Managers Internal Control (MIC) Program Procedures,” was reissued on
    January 4, 2006.



                                                     4
       •   procedures and supervisory oversight to ensure obligations were
           recorded in the accounting records within established timeframes,
           citing the correct line of accounting and obligation amount;

       •   procedures for technicians to follow when matching obligations to
           payment requests;

       •   reconciliation of obligation balances recorded in entitlement and
           accounting systems; and

       •   financial and entitlement system interfaces to accomplish the
           prevalidation process internally with an automated obligation matching
           function at the contract line item and sub-line item level.

Implementing Recommendations A.2, A.3, B.2, and B.3 will improve DFAS
prevalidation procedures. A copy of the final report will be provided to the senior
official responsible for internal controls in DFAS and the Military Departments.




                                     5
                   A. Effectiveness of the Contract Payment
                      Prevalidation Process
                   Since 1995, DoD has made progress in prevalidating commercial contract
                   payments and reducing problem disbursements. However, effective
                   internal controls were not in place to ensure that DoD matched each
                   contract payment request to the corresponding obligation(s) and that, once
                   prevalidated, the disbursement transaction posted correctly in the official
                   accounting records without manual intervention. Internal controls were
                   ineffective because technicians circumvented prevalidation requirements
                   and controls were not in place to ensure that:

                            •   entitlement records were complete and accurate;

                            •   the accounting systems had obligation data recorded within
                                established time frames citing the appropriate accounting
                                classification reference number (ACRN), contract line item
                                number/sub-line item number (CLIN/SLIN), and other required
                                accounting data elements needed to accurately post the
                                disbursement;

                            •   technicians conducted proper oversight and reviews of the
                                entitlement records, payment requests, canceled authorization
                                request numbers (ARNs), 5 and adjusted payments; and
                            •   accounting and entitlement activities analyzed, tracked, and
                                corrected errors found during the process.

                   As a result, errors detectable during the entitlement and prevalidation
                   processes continued to occur, compromising the benefits of the
                   prevalidation process. An effective prevalidation process could have
                   reduced some of the more than $18.8 million spent by DFAS and its DoD
                   customers to correct and reconcile contract payment data.


DoD Prevalidation Plan
           Since DoD began prevalidating commercial payments in July 1995, DoD made
           steady progress in prevalidating contract payments. DoD improved the process by
           using automated interfaces between the entitlement and payment systems and
           lowered the dollar threshold for MOCAS contract payments. These efforts have
           contributed to an overall reduction in the dollar value of reportable DoD problem
           disbursements. In 1997, DoD provided Congress a plan for lowering the
           prevalidation threshold for contract payments to $0 by June 30, 2000. Table 1
           shows key milestones achieved for reducing the prevalidation dollar threshold for

5
    An ARN is the unique identifier used to track prevalidation requests sent between MOCAS and the
    various accounting systems. In this report, ARN refers to a prevalidation request.



                                                     6
contract payments and the corresponding dollar values of problem disbursements
at the end of the fiscal year that a change in the prevalidation threshold occurred.

              Table 1. Changes in the DoD Prevalidation
                Threshold and Problem Disbursements
                                                       Reported
   Fiscal Year of                      Reported         Negative
       Dollar                         Unmatched       Unliquidated
     Threshold       Prevalidation  Disbursements     Obligations
      Change          Threshold        (billions)      (billions)
       1995             $5,000,000             $12.5             $ .9
       1998              1,000,000                8.2             3.0
       2000                500,000                1.7             1.2
       2004                 10,000                0.7             0.1


MOCAS Prevalidation Plan. DoD did not achieve its goal to prevalidate all
contract payments by June 2000. The MOCAS prevalidation plan called for a
phased reduction in the dollar threshold that allowed DFAS Columbus to closely
monitor the effect that lowering the prevalidation threshold had on payment
timeliness. DoD based its decisions to reduce the prevalidation threshold on the
ability to meet and maintain a goal of making at least 95 percent of the payments
on time. On April 5, 2006, DoD reduced the MOCAS prevalidation threshold to
cover all payments on contracts awarded after FY 2004 and payments valued at
$7,500 or greater on contracts awarded in FY 2004 and earlier. However, DoD
has not updated the plan it provided Congress to establish milestones for achieving
a $0 threshold for all contract payments.

Using Audit Command Language (ACL) software, we queried the MOCAS
Invoice History File (YDF1) from March 1 through June 16, 2005, and determined
that 57 percent of the payment requests received during that period, representing
99 percent of the $56 billion disbursed, met the prevalidation threshold in effect.
DFAS Columbus did not prevalidate the remaining 43 percent of the payment
requests, representing about 141,000 payment requests valued at $459 million, that
had individual values less than $10,000. The MOCAS payment requests that
DFAS Columbus did not prevalidate represented only a small percentage of the
dollars disbursed. Thus, DoD would have seen only a minimal impact on interest
charges had payment delays occurred when they extended prevalidation
requirements to the remaining 141,000 payment requests. Also, requiring the
prevalidation of all payment requests enhances DoD’s ability to post
disbursements in the official accounting systems correctly, thereby further
reducing the inflow of DoD problem disbursements. DoD should develop and
implement a plan to accomplish prevalidation on all contract payment requests
with time frames for each scheduled reduction in the threshold. The plan should
assess and compare the cost of not prevalidating contract payments and the risk of
making erroneous payments against the cost of incurring prompt payment interest
charges on late payments.

Reported Success of MOCAS Prevalidation Efforts. DFAS Columbus may
have overstated the reported success of MOCAS prevalidation efforts. In
FY 2005, DFAS reported that the Elimination of Unmatched Disbursements


                                      7
           (EUD) system, used by DFAS Columbus to prevalidate payments, prevalidated
           approximately 1.3 million payment requests. In June 2005, DFAS Columbus
           reported that accounting systems approved 96 percent of the ARNs processed
           between October 2004 and April 2005 on the first attempt. However, the
           96 percent pass rate included ARNs that required manual intervention to complete
           the prevalidation process. We obtained and analyzed EUD files processed by
           DFAS Columbus from March 1 through June 16, 2005. We found that accounting
           systems automatically approved only 64 percent of the ARNs. The remaining
           36 percent of the ARNs received one or more of a series of denial codes requiring
           a technician to perform some form of manual intervention before granting payment
           approval. Including ARNs that require manual processing in the first-attempt
           approval rate overstates DoD’s success rate for prevalidating contract payments.
           Manual processing also increases the costs associated with making contract
           payments. Because the EUD system is not integrated with some accounting
           systems, the commercial payment offices must use a manual process to request
           prevalidation. For ARNs directed to those non-integrated accounting systems, the
           EUD system automatically assigned denial code 031, identifying the need for
           manual intervention. 6 If these were returned approved, DFAS Columbus counted
           them as passing the first time. However, while manually processing these ARNs,
           accounting technicians sometimes identified and corrected errors in the accounting
           records without assigning additional denial codes to the ARN. As a result, DFAS
           Columbus did not have accurate statistics on the overall prevalidation error rate.


Testing for Effective Internal Controls
           DFAS did not conduct detailed root cause analyses to determine the effectiveness
           of the contract payment prevalidation process. Consequently, we obtained the
           database of payment requests processed by DFAS Columbus and DFAS field
           accounting sites to test internal controls in the entitlement and accounting
           processes. We isolated specific subpopulations to test whether internal controls
           were in place and operating effectively. Appendix D provides a detailed
           explanation of the data mining processes and analytical techniques used in
           reviewing the data. See Appendix E for details about the sampling methodology
           and tables showing our sample projections of each test.

           Entitlement Testing. To test for internal control weaknesses in the entitlement
           process, we analyzed four attribute samples. We tested an attribute sample of:

                   •    68 entitlement records that were missing a contract number, shipment
                        number, ACRN, or CLIN/SLIN to determine whether contractors
                        submitted proper payment requests. We also determined whether
                        DFAS Columbus entitlement technicians entered the payment request
                        information provided by the vendor in the entitlement record.


6
    In FY 2006, 12 Navy Working Capital Fund organizations started using a new MOCAS Financial
    Accounting Data Abstract file. The EUD system interfaces directly with the MOCAS Financial
    Accounting Data Abstract file to prevalidate payment requests. As a result, the number of “031”
    prevalidation denials has been reduced for MOCAS payment requests.



                                                      8
           •   67 ARNs with entitlement related denial codes to determine whether
               DFAS Columbus had entitled the payment according to the contract
               and payment request data provided.

           •   69 shipments with canceled ARNs to determine whether DFAS
               Columbus had entitled the payment correctly or needed to make
               changes to the entitlement record.

           •   67 adjustments to shipments that had passed prevalidation and
               disbursed to determine whether DFAS Columbus had entitled the
               originally approved disbursement correctly.

    Obligation Testing. To test for internal control weaknesses in the accounting
    process, we selected an attribute sample of 68 ARNs with accounting related
    denial codes to determine whether the EUD system denied the ARNs because field
    accounting sites did not enter obligation data timely and accurately in the
    accounting systems. In addition, we tested whether the denial codes assigned by
    the system accurately identified the errors.


Internal Controls Over the MOCAS Entitlement Process
    DFAS Columbus did not maintain an adequate control environment, establish
    proper control activities, and conduct sufficient monitoring to ensure the accurate
    and proper entitlement of contract payments. Specifically, the control
    environment and control activities did not identify inaccurate or incomplete
    entitlement records. In addition, DFAS personnel did not conduct sufficient
    monitoring to identify erroneous entitlement records before submitting them for
    prevalidation. DFAS entitlement organizations are key control points for ensuring
    that the entitlement record provides accurate data for the official accounting
    system to match the payment request and acceptance data to the appropriate
    obligation. These organizations need control activities such as approvals,
    authorizations, verifications, and reconciliations to ensure that the entitlement
    records are accurate, complete, and promptly processed. The EUD system denies
    ARNs when sufficient controls are not in place during the entitlement process,
    causing costly and unnecessary research and followup work by technicians.
    Furthermore, because DFAS monitoring techniques did not identify erroneous
    entitlement records, field accounting sites posted payments to incorrect
    obligations. This may result in future disbursement problems and the need for
    costly contract reconciliation.
    Completeness of Entitlement Data
    DFAS Columbus did not ensure that entitlement personnel identified incomplete
    or inaccurate payment requests and entitlement records. We selected 68 sample
    records from the subpopulation of 7,058 entitlement records with potential errors.
    We are 90-percent confident that between 3,623 and 5,096 of the entitlement
    records were missing information in MOCAS. DFAS Columbus did not have
    system and other controls in place to prevent vendors from submitting incomplete
    payment requests and entitlement technicians from submitting entitlement records


                                         9
          for prevalidation that lacked all the information provided in the contract and on the
          vendors’ payment requests. In addition, DFAS Columbus did not require that lead
          technicians review each entitlement record for accuracy and completeness in
          accordance with the requirements in DoD FMR, volume 5, chapter 33.

          Payment Request Completeness. DFAS controls did not prevent incomplete
          payment requests from entering MOCAS and creating inaccurate entitlement
          records. Of the 68 entitlement records we reviewed, DFAS Columbus technicians
          submitted 14 entitlement records for financing payments, such as cost vouchers
          and performance-based payments, using payment requests that did not contain
          CLIN/SLIN information. We are 90-percent confident that between 831 and
          2,075 payment requests used to develop entitlement records were missing
          CLIN/SLIN information necessary for prevalidation (Table E-5). DFAS
          Columbus entitlement technicians did not perform research to identify the
          availability of the missing information. We examined the payment requests
          associated with the 14 entitlement records and determined that the contractors had
          billed for specific milestones or performance. When we compared the invoices to
          the contracts, we were able to match each milestone and performance measure on
          the invoices to a specific CLIN/SLIN in the contracts. DFAS Columbus personnel
          stated that because DoD contracts do not require contractors to always submit
          CLIN/SLIN information on financing payments, DFAS does not need to include
          the information in the entitlement records. DFAS Columbus personnel also
          expressed concern that they cannot consistently and accurately entitle payments to
          the CLIN/SLIN level unless the acquisition community provides detailed billing
          and payment instructions in all contracts. For those contracts that do not require
          billing to the CLIN/SLIN level, contracting officers should include payment
          instructions that state how DFAS should allocate payments to the contract
          CLIN/SLINs. Detailed contract payment instructions would have enabled DFAS
          Columbus technicians to research and include information in the entitlement
          record to permit prevalidation at the CLIN/SLIN level. See Appendix F,
          Table F-1 for details on the 14 entitlement records.

          Based on the results of our review of the 68 sample entitlement records, we
          completed an additional ACL analysis of the EUD files to determine the
          percentage of financing payments that contained CLIN/SLIN information. We
          determined that 90 percent of the financing payments prevalidated from March 1,
          through June 16, 2005, had CLIN/SLIN information in the entitlement record.
          Federal Acquisition Regulation Subpart 32.206, “Solicitation Provisions and
          Contract Clauses,” states that financing payments computed on the line item basis
          should be liquidated to that line item. The Standard Financial Information
          Structure that DoD plans to implement requires accounting for items at the
          CLIN/SLIN level. 7 Therefore, DFAS Columbus technicians should have
          attempted to identify and include CLIN/SLIN information in the entitlement
          records submitted for prevalidation. The Under Secretary of Defense
          (Comptroller)/Chief Financial Officer, in conjunction with the acquisition
          community, should develop a policy to require detailed contract billing and
          payment instructions at the CLIN/SLIN level for payment offices. The policy

7
    The Standard Financial Information Structure will include a requirement for Components to create
    Demand Unique Identifiers when they commit funds. The Demand Unique Identifier is an alphanumeric
    combination that will track obligations to the CLIN/SLIN level.



                                                   10
should also require that payments are entitled to the CLIN/SLIN level based on the
payment request and contract terms and that financial managers use CLIN/SLIN
information to prevalidate disbursements, including financing payments and their
recoupment.

Entitlement Record Completeness. DFAS Columbus technicians did not verify
the completeness of each entitlement record before prevalidation. Of 68 sample
items, 28 records were missing information contained on the supporting payment
requests, such as the CLIN/SLIN or ACRN. We are 90-percent confident that
between 2,163 and 3,650 of the sample entitlement records did not contain all of
the information provided on the supporting contract or payment requests
(Table E-5). The entitlement records were incomplete because DFAS Columbus
personnel did not use information present in the payment requests and the
associated contracts to properly develop the entitlement records. In addition,
DFAS Columbus did not require that lead entitlement technicians review the
entitlement records prepared by their assigned clerks to ensure that they contained
proper and accurate information before attempting prevalidation. Using the same
contract and payment request information available to DFAS Columbus personnel,
we traced each of the 28 entitlement records to a specific ACRN and CLIN/SLIN.
When the entitlement technicians can identify the specific ACRN and CLIN/SLIN
invoiced, they should include that information in the entitlement record. This
permits the prevalidation process to properly match the payment request to the
correct obligation in the accounting system and reduces the number of ARNs
requiring research before payment approval. See Appendix F, Table F-2 for
details on the 28 entitlement records.

Accuracy of Entitlement Records
DFAS Columbus did not adequately research and resolve the root causes of
entitlement errors that resulted in canceled or denied ARNs. Inadequate reviews
and improper certification procedures caused the prevalidation of incorrectly
entitled payments. DFAS Columbus did not identify the root causes of recurring
entitlement errors or develop corrective actions to prevent their future occurrence.
Instead, DFAS Columbus repeatedly canceled or reworked ARNs after the EUD
system identified errors. Reworking ARNs required additional research to correct
errors that technicians should have identified before prevalidation. DFAS
Columbus lead entitlement technicians only reviewed the accuracy of entitlement
records for payment requests greater than $1 million and 10 percent of the
payment requests under $1 million. DoD FMR, volume 5, chapter 33, requires
certification officials to examine all payment vouchers before certification and
ensure that the information contained on the vouchers agrees with the supporting
documentation. If DFAS Columbus lead entitlement technicians had performed
this certification function prior to prevalidation, DFAS would have ensured that
the prevalidation process used accurate entitlement records and reduced the need
for unnecessary ARN cancellations and manual rework.

Prevalidation Attempts Denied Because of Entitlement Issues. We are
90-percent confident DFAS incorrectly entitled between 1,277 and 1,782 ARNs
denied because of entitlement issues. DFAS Columbus did not ensure that the
entitlement records were accurate and complete (Table E-4). DFAS Columbus


                                     11
           entitlement technicians had not entered the correct information in the entitlement
           record and were not loading financing payments into MOCAS timely. We also
           found further evidence that DFAS Columbus did not entitle and liquidate
           financing payments to the CLIN/SLIN level even though that information was
           readily available. Furthermore, DFAS Columbus did not identify recurring
           entitlement errors for resolution.

                   Requests for Liquidation. DFAS could not properly match 34 of the
           67 sample ARNs requesting liquidation of previous financing payments to the
           work-in-progress lines 8 in accounting systems because technicians had not loaded
           financing payments timely, or system anomalies prevented the processing of the
           ARN. The EUD system assigned denial code “058-Request is over recoupment”
           and returned the 34 sample ARNs to DFAS Columbus for correction. In order for
           the request for liquidation to prevalidate automatically, DFAS Columbus must
           promptly entitle financing payments and record them in MOCAS so that
           accounting stations can establish the appropriate work-in-progress line in the
           official accounting records for future liquidation. In addition, none of the
           34 sample ARNs included CLIN/SLIN information.

                   DFAS Columbus could have prevented the denial of 10 of the 34 ARNs by
           ensuring that MOCAS had disbursed previously entitled financing payments
           before attempting to liquidate them. MOCAS only records financing payments as
           work-in-progress at the time of disbursement. Therefore, technicians must ensure
           the posting of all entitled financing payments in MOCAS before entitling the
           liquidation request. We found delays of 10 to 24 days between the time DoD
           received the financing payment requests from the vendor and DFAS Columbus
           disbursed the payments. Because of the delays, there were insufficient funds
           recorded in the work-in-progress lines when the EUD system attempted to
           prevalidate an ARN requesting liquidation of a previous financing payment.
           DFAS Columbus should research and correct the timing problem. See
           Appendix F, Table F-3 for details on the 10 sample ARNs with outstanding
           financing payments not loaded timely.

                   Technicians had loaded the remaining 24 of the 34 ARNs timely and
           accurately in MOCAS, but could not prevalidate automatically because of errors in
           the EUD system entitlement-to-accounting matching process or because funds
           were not loaded timely in the accounting system. For 21 of the denied sample
           ARNs, DFAS loaded the financing-associated payments timely in both MOCAS
           and the accounting system, but errors still occurred when the EUD record
           attempted to find a matching obligation in the accounting systems. DFAS
           personnel were unable to identify the basis of the system anomalies that prevented
           processing the ARNs. As a result, we used ACL to conduct further analysis and
           isolated all ARNs with denial code 058. We determined that 847 of 1,030 ARNs
           belonged to DFAS Rock Island in Rock Island, Illinois, and DFAS St. Louis in
           St. Louis, Missouri, and both DFAS field accounting sites used the same
           accounting system. However, we could not identify discrepancies between the
           entitlement and accounting records that would cause the denial of the ARNs.

8
    DFAS establishes work-in-progress lines in the accounting records to record contract financing payments.
    The work-in-progress line is liquidated based on a percent of the invoices submitted as goods or services
    are delivered.



                                                      12
DFAS should research the root cause of the mismatch and correct the problem.
For the three other sample ARNs, DFAS Dayton in Dayton, Ohio, and DFAS
Charleston in Charleston, South Carolina, had not loaded all of the previous
financing payments timely in the accounting system; therefore, work-in-progress
balances were insufficient when the EUD system attempted prevalidation. See
Appendix F, Table F-4 for details on the 24 sample ARNs with outstanding
financing payments not loaded timely or denied because of system anomalies.

        Accurate Information. DFAS Columbus did not adequately review
entitlement records to ensure the information matched information contained in the
payment requests and contracts before prevalidation. DFAS Columbus entitled
eight sample ARNs with erroneous accounting station, CLIN/SLIN, quantity, or
ACRN information even though the payment request or contract contained the
correct information. The errors caused the EUD system to deny and return the
eight ARNs to DFAS Columbus entitlement technicians for research and
correction. If DFAS Columbus personnel had an effective process to review all
entitlement records for accuracy, they would have identified and corrected the
errors before prevalidation. An effective process should reduce or eliminate the
costs of performing additional research and correcting the entitlement records.
See Appendix F, Table F-5 for details on the eight sample ARNs.

Tracking and Resolving Entitlement Denial Codes. Although DFAS Columbus
personnel tracked accounting stations with the most common errors, they did not
take steps to identify the root causes and develop corrective actions to resolve
future entitlement errors. For example, we identified four sample ARNs that the
EUD system assigned denial code “014-Mismatched accounting station.” A
review of these ARNs identified that no error had occurred. By using ACL, we
isolated all ARNs with a denial code 014 and determined that 262 of 314 ARNs
belonged to the U.S. Army Aviation and Missile Command. Neither DFAS
Columbus nor DFAS St. Louis, the responsible accounting station, researched the
cause of this recurring problem to determine the appropriate corrective actions
needed to prevent future occurrences.

Likewise, DFAS Dayton accounted for 459 of the 513 ARNs that received a denial
code “013-Inability to match fiscal year.” DFAS Dayton recognized that many
prevalidation requests would not pass automatically because the fiscal year field in
the entitlement record showed “XXXX” and did not match the same field in the
accounting record, which was blank. However, neither DFAS Columbus nor
DFAS Dayton took action to research and resolve the disparity in how the fiscal
year field is populated in each system. Failure to research and resolve these
recurring errors resulted in DFAS incurring additional costs to have technicians
manually approve these prevalidation requests. DFAS Columbus should identify
and monitor the root causes for entitlement denial codes, attribute recurring causes
to specific accounting stations, and promptly resolve the problems.

Canceled Prevalidation Requests
DFAS Columbus personnel did not perform comprehensive reviews of entitlement
records. They performed limited reviews that did not identify errors before
prevalidation. We identified a population of 58,094 ARNs that DFAS Columbus


                                     13
canceled because of errors in the entitlement record or at the request of the
contractor. These ARNs comprised 26,984 unique shipment numbers submitted
for payment. We tested a sample of 69 shipments that contained canceled ARNs
to determine whether DFAS Columbus could have prevented the cancellation and
need for rework. We are 90-percent confident that DFAS Columbus inaccurately
entitled between 5,912 and 11,295 shipments that contained canceled ARNs
(Table E-2). DFAS Columbus entitled 22 of the sample shipments’ ARNs with
incorrect information. The EUD system could not match 20 of the 22 ARNs to the
appropriate obligation because the ARNs were missing information or DFAS
Columbus had entitled the shipments with incorrect information, such as ACRNs,
CLINs/SLINs, commitment reference numbers, or dollar amounts. Incorrect
entitlement records cause ARNs to fail the prevalidation process, requiring
technicians to perform additional research and rework. If the controls within the
prevalidation process do not identify errors, or technicians overlook the errors, the
official accounting records will erroneously post the shipment information
containing the errors.

DFAS Columbus must review the entitlement of each shipment before
prevalidation to ensure accuracy. The prevalidation process should not allow the
processing of entitlement records without the accounting data needed to properly
post a payment in the official accounting record. DFAS Columbus had identified
the data elements required by each Military Department to properly prevalidate
and post disbursements in the official accounting records. However, DFAS
Columbus did not develop edit checks or other control procedures that would
prevent the prevalidation of entitlement records that were missing the required
data elements. DFAS should re-assess the data fields required by each Military
Department and develop system controls within the EUD system that would
require complete entitlement records before attempting prevalidation.
Additionally, DFAS Columbus did not monitor or research the root causes for
canceled ARNs to develop solutions for resolving common anomalies and errors
made by vendors or entitlement personnel. See Appendix F, Table F-6 for details
on the 22 sample canceled ARNs.

Adjustments Needed to Correct Entitlement Errors
Inadequate reviews by both entitlement and accounting technicians allowed
shipments to be paid for and posted in the official accounting records with
incorrect obligations data. These errors occurred even though the shipments had
passed the prevalidation process. We are 90-percent confident that DFAS
technicians did not ensure that the entitlement records used to prevalidate and pay
between 1,385 and 2,159 ARNs contained accurate and correct information
(Table E-6). This type of error required DFAS to make an accounting adjustment
after disbursing the funds to correctly post the payment in the official accounting
records.




                                     14
Of the 67 sample ARNs that required an adjustment after prevalidation, DFAS
Columbus personnel entitled:

       •   19 to the incorrect ACRN;

       •   3 to an ACRN containing errors in the line of accounting; and

       •   11 shipments with other incorrect information, such as the quantity,
           vendor, or amount.

In some instances, DFAS Columbus did not adjust the payments until a contract
review or the contractor identified the error. Supporting documentation indicated
that DoD and DFAS financial management personnel should have identified these
errors before prevalidation through the review and certification process required
by DoD FMR, volume 5, chapter 33. DFAS Columbus also did not have adequate
authorization and approval controls over accounting adjustments. We found that
adjustments that DFAS Columbus made did not always correct the original
entitlement error or contained additional errors. Furthermore, DoD did not require
prevalidation of the adjustments before posting them to the accounting and
entitlement systems. To ensure that the adjustments correctly identify the
accounting changes needed, DFAS should prevalidate accounting adjustments
before posting them. See Appendix F, Table F-7 for details on the 33 adjustment
transactions.

Conclusion. The control environment over the entitlement of contract payments
did not ensure that payments properly matched corresponding obligations in the
official accounting records. A majority of the errors we identified in the
prevalidation process were the result of DFAS Columbus not ensuring that the
entitlement records were accurate and complete. In addition, contract billing and
payment instructions did not always identify how payments were to be allocated to
CLIN/SLIN level.

DFAS Columbus also did not have an effective payment certification process that
reviewed each proposed payment for accuracy and completeness. As a result,
inaccurate and incomplete entitlement records entered the prevalidation process
resulting in denied and canceled ARNs. These errors result in an additional cost to
DFAS customers because accounting and entitlement technicians must perform
manual research and entitlement efforts or costly contract reconciliations before
making the disbursements and properly posting them in accounting records. In
addition, we identified incorrect entitlements that went undetected during the
prevalidation process and required additional research and adjustment actions after
disbursement to post to the proper obligations. DoD did not require the
prevalidation of these adjustments, compromising the integrity of the process
designed to maintain the accuracy of the official accounting records. Finally,
because DFAS Columbus personnel did not identify, analyze, or correct the root
causes of prevalidation errors, the errors continued to occur and jeopardized the
accuracy of the official accounting data.




                                    15
Internal Controls Over Obligation Balances
     DoD did not maintain an adequate control environment to ensure that DoD
     organizations recorded obligations timely and accurately in the official accounting
     systems. Specifically, DoD personnel did not comply with the DoD FMR
     requirement to record all obligations in the official accounting systems within
     10 days of incurrence. Furthermore, DoD financial managers and system controls
     did not monitor the accounting records to ensure that the accounting systems
     maintained accurate obligation information and balances. Monitoring and review
     procedures should have identified the DoD organizations that did not record
     obligations timely. DFAS did not trace recurring problems to the responsible
     officials so that Military Department financial managers could take corrective
     actions. DFAS also did not identify and correct inadequate system controls.
     Obligation information was not entered simultaneously or accurately in both
     entitlement and accounting systems, and system controls did not identify or
     prevent transactions that led to the out-of-balance conditions.

     Recording Obligations Within 10 Days. DoD did not comply with the
     DoD FMR requirement in volume 3, chapter 8 to record obligations in the official
     accounting records within 10 days of a legally binding obligation of the
     Government to pay for a service or product. We are 96.6-percent confident that
     between 1,740 and 5,487 ARNs that received an accounting denial code did not
     have an obligation entered in the accounting system before attempting to process
     the ARN (Table E-3). For 15 sample ARNs, DoD personnel entered the
     obligations in the accounting systems from 13 to 302 days after the legal
     obligation occurred. In addition, controls were not in place to ensure accounting
     technicians corrected data errors before approving the ARN for payment, and
     DFAS personnel sometimes approved ARNs for payment even though they did not
     have positive assurance that the accounting stations had entered the obligation in
     the accounting records. These activities circumvent prevalidation process controls
     and result in the need for additional research and rework after making the
     disbursements, in order to match and post the payments to the correct obligations.
     DFAS should track and report to the Military Departments the organizations that
     do not record obligations on time. See Appendix F, Table F-8 for details on the
     15 prevalidation requests.

     Accuracy of Obligation Data. DoD did not have adequate internal controls to
     ensure that accounting stations recorded obligations accurately and maintained a
     proper obligation balance. DoD personnel did not adequately review the
     obligation data entered in the official accounting records to ensure the accuracy of
     the recorded obligations and the obligation balances. Overall, we are 96.6-percent
     confident that between 6,680 and 11,148 ARNs that received an accounting denial
     code did not have the corresponding obligation recorded correctly or had
     insufficient obligation balances available to approve the ARN (Table E-3). Of the
     68 ARNs in the sample, 37 failed prevalidation because the accounting stations
     posted obligations to the incorrect CLIN/SLIN, failed to reverse accounting entries
     for previously canceled ARNs, or posted prior payments against the wrong
     obligations. When entitling the payment requests, DFAS Columbus determined
     that MOCAS had an unliquidated obligation balance large enough to make the
     payment. However, DFAS and the Military Departments did not sufficiently


                                          16
monitor the accuracy of obligation balances in the official accounting records, thus
jeopardizing the integrity of the prevalidation process. Because DoD does not
have a single entry system that enters obligations in MOCAS and the accounting
systems at the same time, DoD needs to conduct periodic system checks between
MOCAS and the various accounting systems to identify inaccuracies in obligation
balances before prevalidation. Furthermore, DFAS needs to create the system
functionality to reverse the accounting entries for previously canceled ARNs to
maintain accurate obligation balances. See Appendix F, Table F-9, for details on
the 37 sample prevalidation requests with errors.

Misclassified Accounting Station Denial Codes. The EUD system did not
always accurately identify the cause of prevalidation failures. We are 96.6-percent
confident that between 1,349 and 4,915 ARNs sent to accounting stations for
correction failed prevalidation because entitlement technicians had incorrectly
entitled the payment requests (Table E-3). Our review showed that 14 sampled
ARNs assigned denial codes “001-CLIN/SLIN not in accounting record” or
“023-amount exceeds unliquidated obligation” were misrouted to an accounting
station for correction. After some research, accounting stations determined that
the entitled information was in error and had to reroute the ARNs to DFAS
Columbus for correction. (See Appendix F, Table F-10, for details on the 68
sample prevalidation requests that required corrections). For example, DFAS
Columbus received a payment request that billed CLIN 0001AA but incorrectly
entitled the request to CLIN 0001AB, causing the ARN to fail prevalidation. The
EUD system assigned denial code 001, requiring the accounting station to research
and correct the ARN. However, only DFAS Columbus could correct the
entitlement record so that the ARN would pass prevalidation. By sending these
denied ARNs to accounting stations for correction, DFAS accounting technicians
performed unnecessary research. DFAS Columbus could have prevented these
errors if the lead entitlement technicians had reviewed entitlement records before
prevalidation. Furthermore, if DFAS Columbus had analyzed the root causes of
denial codes, it would have determined that entitlement problems were causing
these errors and taken steps to correct the entitlement process.

Conclusion. For the prevalidation process to succeed, DoD must maintain the
integrity of the obligation balances maintained in both the accounting systems and
MOCAS. DoD management needs to strengthen internal controls to ensure that
accounting stations record obligations in a timely manner. By not recording
obligations in the accounting systems within 10 days, DoD organizations not only
failed to comply with the DoD FMR but created unneeded research and rework to
prevalidate and post disbursements to the accounting systems. DFAS should
identify and track the DoD organizations that fail to enter obligations timely and
report them to the Military Department Comptrollers for corrective action. DoD
also needs to develop control techniques to monitor and reconcile obligation
balances recorded in the entitlement and accounting systems and identify
inaccurate data or out-of-balance conditions. DoD lacks a means to
simultaneously enter the same obligation data into MOCAS and the various
accounting systems. Without a single entry system, technicians enter obligation
data into MOCAS and the various accounting systems at different times.
Furthermore, the information in the two sets of systems is not always the same.
To facilitate prevalidation between the accounting and entitlement systems, DoD
should develop a process to record the identical obligation data in both MOCAS


                                     17
           and the accounting systems. In the interim, DoD should periodically identify
           obligation balances that are out of balance between MOCAS and the accounting
           systems.


System Limitations at DFAS Field Accounting Sites
           DFAS accounting stations lacked internal controls to ensure that disbursements
           matched corresponding obligations without the need for manual intervention. The
           three DFAS field accounting sites we visited had to work within system
           limitations that hindered the prevalidation process. Based on our test of ARNs
           denied and returned to the accounting stations for correction, we found that 17 of
           68 sample ARNs did not pass prevalidation automatically because of system
           limitations that required manual intervention to complete the prevalidation
           process.

           DFAS St. Louis. DFAS St. Louis did not have internal controls that ensured that
           requests would process accurately. At DFAS St. Louis, the EUD system did not
           directly interface with the official accounting systems. Instead, DFAS St. Louis
           downloaded accounting data to an off-line database to prevalidate payments.
           DFAS St. Louis management acknowledged that the database contained inaccurate
           information, which caused the erroneous approval or denial of some ARNs. In
           DoD IG memorandum, “Termination of the Audit of the Procedures for
           Prevalidating Payments,” April 4, 2003, we informed DFAS that this database was
           corrupt and recommended that they identify the cause for the corruption and
           implement corrective actions. Although DFAS St. Louis personnel had identified
           the reoccurrence of this problem, they did not implement effective corrective
           actions. In addition, DFAS St. Louis personnel did not identify the number of
           transactions affected or determine why the database periodically became corrupted
           with inaccurate data. To resolve the problem, DFAS needs to establish a direct
           link between the EUD system and the accounting systems to ensure that the most
           up-to-date and accurate obligation data is used to prevalidate contract payments.
           The Logistics Modernization Program (LMP) system should have resolved these
           issues but has not. 9 (See Finding B for a discussion of how LMP prevalidates
           payments.) In the meantime, DFAS should take steps to correct DFAS St. Louis’
           off-line database so that the database maintains accurate obligation data to
           accomplish the prevalidation process.

           DFAS Charleston. DFAS Charleston did not have sufficient internal controls to
           ensure that ARNs processed accurately. The EUD system interacted with an
           off-line database instead of processing information directly with the accounting
           system. DFAS Charleston used the Financial Accounting Data Abstract (FADA)
           file to prevalidate ARNs. However, the FADA did not contain accurate obligation
           data, and could not process certain ARNs on the same day as the prevalidation
           attempt. In addition, the Department of Navy did not update the FADA routinely

9
    In December 1999, the Army Materiel Command contracted with a vendor to develop and implement a
    comprehensive logistics management system. The Army used a commercial enterprise resource planning
    software application (obtained from SAP Public Sector and Education Inc.) that included financial and
    funds accounting modules to develop LMP.



                                                     18
    with the most current obligation data. This caused some ARNs to erroneously
    pass prevalidation and other ARNs to erroneously fail. Furthermore, the FADA
    did not have the capability to process both payment and recoupment transactions
    simultaneously against the same obligation record, causing one of the two types of
    transactions to fail. DFAS had identified the problems but had not developed the
    corrective actions needed to resolve the problems.

    DFAS Dayton. Inadequate controls caused some ARNs to fail and required
    manual intervention even though there was an obligation balance large enough to
    approve the ARN for payment. When DFAS Dayton approved ARNs, the system
    reserved funds by moving the prevalidated amount to the Accrued Expenditure
    Unpaid general ledger account code (GLAC). However, when DFAS Columbus
    subsequently canceled those ARNs, the funds remained in that GLAC because of
    the inability of the system to reverse the previous transaction. When DFAS
    Dayton technicians failed to manually reverse these transactions, the system
    understated the Unliquidated Obligation GLAC while overstating the Accrued
    Expenditures Unpaid GLAC balance. Consequently, when DFAS Columbus
    submitted subsequent ARNs affecting that obligation, the system was sometimes
    incapable of identifying that a sufficient obligation balance existed to approve the
    ARN. As a result, technicians had to accomplish unnecessary manual research to
    ensure adequate funding existed to approve the subsequent ARNs. Although
    technicians sometimes identified this problem for a specific obligation, DFAS did
    not systematically correct the problem. To prevent unnecessary manual
    intervention, DFAS should implement a system change that would automate
    reversing the general ledger transactions for canceled ARNs.


Managers’ Assessment of Internal Controls
    DFAS and DoD managers did not identify compliance with prevalidation
    requirements as an assessable unit and accomplish the requirements contained in
    DoD Instruction 5010.40 and OMB Circular No. A-123. As a result, they did not
    identify and report the material weaknesses related to the entitlement of payments,
    recording of obligations, and prevalidation of payments that we identified. To
    maintain compliance with the DoD and OMB internal control requirements,
    managers were responsible for ensuring complete documentation of the
    prevalidation process and identification of the key internal controls required to
    ensure compliance with the public law requirements. Managers should have
    established internal controls to mitigate any potential for circumventing this
    process and ensure that each prevalidated payment posted accurately to the official
    accounting record without an adjustment. The control environment did not ensure
    that each payment would post to the correct obligation.

    Controls, such as edit checks and proper certification of payments, were not
    sufficiently in place to ensure that entitlement records used during prevalidation
    were accurate and correct. Other controls were not in place to identify and correct
    errors during the prevalidation process before approving the payments. With the
    exception of the manual prevalidation function identified by DFAS Columbus,
    DFAS did not identify the prevalidation function as a separate assessable unit
    within the disbursement cycle, which would have enabled management to monitor


                                         19
     a significant financial function. We found that the prevalidation function was
     usually incorporated within the larger process of contract payments. There was no
     consistency in documenting, evaluating, and reporting on the prevalidation process
     within the internal control program. DoD managers must continuously monitor
     the prevalidation process, identify anomalies, and develop corrective action plans
     for any shortfalls.


Cost of Erroneous Entitlements and Prevalidation Requests
     Insufficient manual and system controls caused DFAS to conduct unnecessary
     research and rework of contract payments to resolve errors generated during the
     entitlement and prevalidation processes. The errors created unnecessary work for
     the entitlement technicians and accounting stations or went undetected until after
     DFAS made the payments and required contract reconciliation. In most cases,
     DFAS Columbus should have identified these errors before attempting
     prevalidation. The uncorrected errors increased the costs of making and recording
     payments and contributed to the need for costly contract reconciliation. Although
     not easily quantifiable, had DFAS implemented an effective prevalidation process,
     DoD could have reduced a portion of the cost of making contract payments by
     eliminating rework. A more effective prevalidation process could have reduced
     some of the more than $18.8 million spent by DFAS and its DoD customers to
     correct and reconcile contract payment data. Specifically, DoD could have saved
     some of the $6.3 million budgeted in FY 2005 for technicians to manually match
     payments during prevalidation and post payments after disbursement. In addition,
     DoD may have been able to reduce some of the more than $12.5 million in
     contract reconciliation costs spent by DFAS and the DoD Components in FY 2005
     to correct improperly posted disbursements.


Summary
     DoD has made steady progress since 1995 in improving the prevalidation of
     contract payments. DFAS has also lowered the prevalidation threshold for
     contract payments made by MOCAS from $5 million to $7,500. Despite this
     progress, more needs to be done to ensure that each payment request matches the
     correct obligation before making the disbursement. Improvements are needed in
     the MOCAS entitlement process and in controls over obligation balances. The
     DFAS Columbus commercial payment office had ineffective manual and
     systematic entitlement review procedures. System controls did not identify
     missing data in entitlement records and technicians did not review contract terms
     to ensure that entitlement records contained the required CLIN/SLIN information.
     DFAS Columbus prevalidated incomplete or inaccurate entitlement records
     because they did not review, compare, and certify that each entitlement record
     matched the supporting documentation before attempting prevalidation. The
     incomplete and inaccurate entitlement records resulted in unneeded research and
     rework of the prevalidation requests by entitlement, prevalidation, and accounting
     technicians. If left uncorrected, the inaccuracies will create problem
     disbursements that require


                                         20
    additional efforts by DFAS personnel to research and resolve. Also, DFAS was
    not prevalidating accounting adjustments needed to correct disbursement errors
    compromising the integrity of the prevalidation process.

    DFAS lacked sufficient monitoring procedures to identify and correct the root
    causes of errors in the prevalidation and disbursement processes. Although DFAS
    Columbus personnel identified the most common errors in the prevalidation
    process, they did not analyze canceled prevalidation attempts and accounting
    adjustments to identify causes and resolve common problems. DFAS also did not
    track and report DoD organizations that did not comply with the DoD FMR
    requirement to record obligations in a timely manner. In addition, when
    obligations were entered into the accounting systems, DFAS personnel did not
    adequately review the obligations to ensure their accuracy in both the accounting
    and entitlement systems.

    DoD system limitations hindered the effective prevalidation of contract payments.
    When the EUD system identified errors, DFAS did not ensure that the
    prevalidation technicians made the necessary corrections to ensure that the
    payments would post accurately without intervention once disbursed. DoD must
    take steps to update the plan for achieving full compliance with the prevalidation
    requirements. DoD must also implement strong internal control measures to
    ensure that DoD commercial payment offices and accounting field sites effectively
    accomplish the prevalidation process and maintain accurate accounting records.


Management Comments on Internal Control Weaknesses
    In her comments to the draft report, the DFAS Deputy Director for Standards and
    Compliance addressed the material internal control weaknesses identified in this
    report. She stated that DFAS will correct inadequate policies and procedures as it
    implements corrective actions in the accounts payable business area. She also
    stated that the lack of interfaces and edit checks would be addressed with the
    implementation of the new Enterprise Resource Planning (ERP) systems and the
    use of a new Business Activity Monitoring tool. The Deputy Director also stated
    that DFAS would identify any other internal control weaknesses through the
    DFAS Annual Statement of Assurance process.


Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer, in conjunction with the Director,
    Defense Finance and Accounting Service, update the DoD prevalidation plan.
    The plan should include:

         a. time frames for lowering the dollar threshold for all contract
    payments to $0 based on a detailed cost analysis.



                                        21
Management Comments. The DoD Acting Deputy Chief Financial Officer
concurred and stated that DFAS will update the plan to reduce the MOCAS
prevalidation threshold incrementally to $0, if the benefits of further reductions
support the additional costs.

Audit Response. The Acting Deputy Chief Financial Officer comments were
partially responsive. Until DoD can implement integrated financial management
systems, the prevalidation process is essential for ensuring data integrity between
legacy DoD accounting and payment systems. Senate Report No. 104-286
required DoD to submit a plan to match all DoD disbursements to corresponding
obligations before payment. Since DoD did not achieve the original planned
milestones provided to Congress, DFAS needs to update the plan and inform
Congress of the revised milestones for prevalidating all commercial payments.
We request that the Under Secretary of Defense (Comptroller)/Chief Financial
Officer provide additional comments outlining the DoD revised milestones for
lowering the prevalidation dollar threshold to $0 and identify an estimated
completion date for updating the prevalidation plan.

       b. a requirement to prevalidate all accounting adjustments.

Management Comments. The DoD Acting Deputy Chief Financial Officer
partially concurred and stated that DFAS is currently prevalidating accounting
adjustments greater than $1 million and working to lower this threshold. He also
stated that DFAS will develop a plan to lower the threshold for prevalidating
accounting adjustments in MOCAS, assuming the reduction is supported by a
cost-benefit analysis.

Audit Response. The Acting Deputy Chief Financial Officer comments were
partially responsive. Although we agree a cost-benefit analysis should guide
further reductions in the prevalidation threshold, allowing DFAS to make
adjustments to previously prevalidated payments without also prevalidating them
compromises the integrity of the prevalidation process. When determining the
cost benefit, DoD must also consider the additional costs associated with
researching and resolving data integrity issues within the accounting and payment
systems resulting from adjustments bypassing the prevalidation process. We
request that the Office of the Under Secretary of Defense (Comptroller)/Chief
Financial Officer provide additional comments detailing DoD plans to lower the
threshold for accounting adjustments, including an estimated completion date for
updating the plan.

A.2. We recommend that the Under Secretary of Defense
(Comptroller)/Chief Financial Officer, in conjunction with the Under
Secretary of Defense for Acquisition, Technology, and Logistics, develop a
policy to:

       a. provide payment offices with detailed contract billing and payment
instructions requiring payment at the contract line item number and sub-line
item number level.

Management Comments. The DoD Acting Deputy Chief Financial Officer
partially concurred and stated that DoD established standard billing and payment


                                     22
instructions in October 2005. The Defense Federal Acquisition Regulation
Supplement Procedures, Guidance, and Instruction 204.7108 requires contracting
officers to include standard payment instructions in Section G of contracts. He
also stated that DoD is assessing the feasibility of automating the standard
payment instructions in MOCAS.

Audit Response. The Acting Deputy Chief Financial Officer comments were
partially responsive. We agree that Defense Federal Acquisition Regulation
Supplement Procedures, Guidance, and Instruction 204.7108 now requires
contracting offices to provide detailed payment instructions. However, until DoD
automates these standard payment instructions, the Under Secretary of Defense
(Comptroller)/Chief Financial Officer must develop controls to ensure that the
DoD payment offices properly entitle, prevalidate, and disburse payments covered
by Section G of the contract. DFAS should prevalidate payments for all other
contracts that do not meet the scope of Defense Federal Acquisition Regulation
Supplement Procedures, Guidance, and Instruction 204.7108 to the CLIN/SLIN.
We request that the Under Secretary of Defense (Comptroller)/Chief Financial
Officer coordinate with the Under Secretary of Defense for Acquisition,
Technology, and Logistics and provide additional comments detailing the
implementation of controls to ensure that contracting officers and payment
technicians comply with the requirements of Defense Federal Acquisition
Regulation Supplement Procedures, Guidance, and Instruction 204.7108.

        b. comply with the Standard Financial Information Structure by
requiring the entitlement and prevalidation of each payment to the contract
line item number and sub-line item number level, including financing
payments and their recoupment.

Management Comments. The DoD Acting Deputy Chief Financial Officer
nonconcurred and stated that there was no relationship between the Standard
Financial Information Structure and the requirement for the entitlement and
prevalidation of each payment.

Audit Response. The Acting Deputy Chief Financial Officer comments were not
responsive. We do not agree that the Standard Financial Information Structure is
unrelated to the requirement to entitle and prevalidate each payment. As
highlighted in the Deputy Under Secretary of Defense for Business
Transformation comments, the Standard Financial Information Structure is
important for DoD to fully meet prevalidation requirements. The Concept of
Operations for the Standard Financial Information Structure, Version 2.4,
September 19, 2005, requires unique identification to the CLIN/SLIN level for all
obligation data and ties a Demand Unique Identifier suffixed at the SLIN level
directly to the accounting classification on all obligating documents. As DoD
feeder systems implement the Standard Financial Information Structure,
documents used in the entitlement process need to cite this Demand Unique
Identifier. Therefore, DoD must take steps to accomplish prevalidation using this
Standard Financial Information Structure format. We request that the Office of the
Under Secretary of Defense (Comptroller)/Chief Financial Officer reconsider its
position on the recommendation and provide additional comments on the final
report.



                                    23
A.3. We recommend that the Deputy Director for Operations, Defense
Finance and Accounting Service, in conjunction with the Assistant Secretaries
for Financial Management and Comptroller of the Military Departments:

        a. Identify the data fields required by each Military Department to
properly prevalidate and post disbursement transactions in the official
accounting systems, and develop edit checks within the Mechanization of
Contract Administrative Services system and the Elimination of Unmatched
Disbursement system that would require complete information in those data
fields before attempting prevalidation.

Management Comments. The DFAS Deputy Director for Standards and
Compliance concurred and stated that data fields required to properly prevalidate
and post disbursements will be identified for new ERP systems. She also stated
that DFAS has been working to improve the prevalidation process related to other
Army and Navy accounting systems. In addition, DFAS will develop a plan of
action and milestones to identify the requirements to automate the Standard Army
Finance Information System prevalidation process and review the edits required in
the Standard Operations Maintenance Army Research Development System to
post disbursement transactions. DFAS has also initiated the implementation of the
Enterprise Risk Management Business Activity Monitoring tool to perform edit
checks to ensure that complete information is available before attempting to
prevalidate commercial payments.

       b. Require that payment requests and entitlement records contain all
necessary information before prevalidating payment requests.

Management Comments. The DFAS Deputy Director for Standards and
Compliance partially concurred and stated that DFAS will complete a plan of
action and milestones to address mismatch conditions between the information
required on the invoice by the accounting systems and the information required on
the invoice by the contract. She stated that MOCAS entitled all information
required by contracts, but accounting systems required data that were not
contractually required on invoices. She also stated that CLIN/SLIN information is
not always contractually required and that contract financing payments were not
CLIN/SLIN specific.

Audit Response. The DFAS comments were partially responsive. We agree that
not all contracts require CLIN/SLIN information. However, DFAS did not entitle
contract financing payments to the CLIN/SLIN level even when the contractor had
provided the information or the proper CLIN/SLIN information was readily
identifiable in the contract. DFAS needs to develop policies to ensure that when
the contractor submits an invoice for payment that, if the invoice or contract
payment information provides the appropriate CLIN/SLIN-level data reflecting the
level of work performed, DFAS organizations will entitle, obligate, and
prevalidate the payments to the proper CLIN/SLIN level. We request that DFAS
reconsider its position and provide additional comments on the final report.




                                   24
       c. Use a single source data file to record identical obligation data in
both the entitlement and accounting systems. In the interim:

              (1) Develop and provide to fund managers an automated
report that identifies out-of-balance obligation data between the
Mechanization of Contract Administrative Services system and
corresponding accounting systems for each accounting classification reference
number and contract line item number/sub-line item number.

               (2) Develop control procedures to monitor, reconcile, and
correct differences between the systems.

Management Comments. The DFAS Deputy Director for Standards and
Compliance partially concurred and stated that DFAS will work with the ERP
systems to develop a single source data file for obligation data. In the interim,
DFAS will conduct reconciliations between entitlement and accounting systems.
The Deputy Director stated that DFAS has identified the need for a reconciliation
process in the DFAS Financial Improvement Audit Readiness plan. She also
stated that as workload transfers to DFAS Columbus, DFAS will develop
automated reports to identify out-of-balance situations between the entitlement and
accounting systems.

Audit Response. The DFAS comments were responsive. The intent of the
recommendation was to develop a method of resolving differences in the
obligations data recorded in the entitlement and accounting systems. Planned
management actions will meet the intent of the recommendation.

       d. Identify the DoD organizations that do not record obligations in the
accounting systems within 10 days, and provide status reports to the Assistant
Secretaries for Financial Management and Comptroller of the Military
Departments.

Management Comments. The DFAS Deputy Director for Standards and
Compliance partially concurred and stated that DFAS had limited capability to
fully implement the recommendation because it does not have immediate visibility
over obligations loaded in the accounting systems. However, the Deputy Director
agreed to conduct root cause analyses and provide relevant information concerning
the untimely recording of obligations to the Military Departments.

Audit Response. The DFAS comments were responsive. The intent of the
recommendation was to provide visibility of known violations of the requirement
to record obligations within 10 days to the Military Departments for corrective
actions. Planned management actions will meet the intent of the recommendation.

        e. Identify and correct system limitations that prevent the interim, off-
line databases used for prevalidation from maintaining accurate obligation
data, and modify procedures and interfaces to ensure that all transactions
affecting obligation balances are used to update obligation data in the:

            (1) Financial Accounting Data Abstract file used by the
Department of the Navy, and


                                    25
              (2) Off-line database used by Defense Finance and Accounting
Service St. Louis.

Management Comments. The DFAS Deputy Director for Standards and
Compliance concurred and stated that DFAS Cleveland has established automated
daily feeds from accounting systems to the Standard Accounting and Reporting
System One Pay and FADA files to ensure that the obligation data are current.
She also stated that DFAS St. Louis will correct the system limitations and modify
procedures and interfaces by April 1, 2007.

A.4. We recommend that the Deputy Director for Operations, Defense
Finance and Accounting Service:

     a. Establish the prevalidation process as an area for inclusion in the
DFAS self assessment of the DoD disbursement cycle.

Management Comments. The DFAS Deputy Director for Standards and
Compliance concurred and stated that the prevalidation process will be a subset of
the accounts payable assessable unit under the Director for Operations initiative to
standardize assessable units at all DFAS sites. She also stated that special
emphasis will be placed on this area because of its high visibility and impact on
the overall operational accuracy of posting disbursements.

Audit Response. The DFAS comments were responsive. Establishing the
prevalidation process as a subset of the accounts payable assessable unit meets the
intent of the recommendation.

        b. Require lead technicians to perform the functions of certifying
officials and review all contract payments for accuracy and completeness
before submitting entitlement records for prevalidation.

Management Comments. The DFAS Deputy Director for Standards and
Compliance nonconcurred and stated that having lead technicians perform the
reviews required by the certification officials would be a duplication of effort and
not cost effective. However, she stated that DFAS recognizes the need for
improving the accuracy and completeness of contract payments and has financial
analysts and branch chiefs perform high-level reviews of proposed, manual
contract payments.

Audit Response. The DFAS comments were not responsive. Our review of
payment and prevalidation error transactions showed that the DFAS Columbus
certification process did not comply with DoD FMR, volume 5, chapter 33. The
process did not require certifying officials to review the accuracy of facts and
computations related to each proposed payment before certification. In addition,
the reviews performed by certifying officials were not comprehensive. Many of
the errors occurring during the prevalidation process, which caused adjustments to
be made subsequent to disbursement, would have been identifiable during the
entitlement process if a certifying official had reviewed the documentation
available at DFAS Columbus. The prevalidation of improperly entitled payments
raises questions about the comprehensiveness of payment certifications. DFAS
should assign the payment certification functions to its lead entitlement


                                     26
technicians and require them to review all proposed contract payments for
accuracy and completeness before attempting prevalidation. This would permit
the use of the prevalidation process to help verify the legality of payments, which
the certification officials could then rely on to certify the payment. These reviews
would also effect a reduction in the number of adjustments required to correct
improperly prevalidated payments, saving DoD considerable time and money. We
request that DFAS reconsider its position and provide additional comment on the
final report.

       c. Use data mining tools to track and analyze the root causes of
recurring errors identified in the prevalidation process, identify recurring
causes, and develop corrective actions to prevent future occurrence. At a
minimum, the Defense Finance and Accounting Service should periodically
conduct root cause analyses on:

               (1) denied prevalidation requests,

               (2) canceled prevalidation requests,

             (3) disbursements that require manual intervention to post to
the accounting systems, and

               (4) disbursements that require accounting adjustments.

Management Comments. The DFAS Deputy Director for Standards and
Compliance concurred and stated that DFAS will use its new Business Activity
Monitoring capabilities to perform root cause analyses on errors detected in the
prevalidation process. The Deputy Director also stated that DFAS Columbus will
establish processes to perform root cause analyses. Based on the analyses, DFAS
will recommend solutions, provide training, and implement additional controls.

       d. Develop the functionality in accounting systems to reverse the
previously recorded Accrued Expenditures Unpaid and Accounts Payable
accounting entries when the Elimination of Unmatched Disbursements system
cancels a prevalidation request that has already been approved.

Management Comments. The DFAS Deputy Director for Standards and
Compliance concurred and stated that, except for the LMP system, all accounting
systems that use the EUD system have the functionality to reverse a previously
recorded Accrued Expenditure Unpaid and Accounts Payable accounting entry
upon receipt of a canceled prevalidation request. She stated that DFAS will
communicate this requirement to the LMP Program Director.

Audit Response. The DFAS comments were responsive. DFAS Dayton has
developed the functionality to reverse a previously recorded Accrued Expenditure
Unpaid and Accounts Payable accounting entry upon receipt of a canceled
prevalidation request.




                                     27
           B. Prevalidation in Future Accounting
              Systems
           The Army failed to correct its long-standing weaknesses in matching
           obligations with proposed disbursements for the Army Working Capital
           Fund (AWCF). The Army developed the Logistics Modernization
           Program (LMP) without the capability to internally perform the
           prevalidation function directly with DoD entitlement systems, and DFAS
           continued to use an ineffective and unreliable off-line database to
           prevalidate AWCF payments. The prevalidation of AWCF payments was
           ineffective because financial managers failed to:

                   •   develop an interface with DoD entitlement systems for
                       accomplishing the prevalidation function internally within
                       LMP, and

                   •   place the correct budgetary data into the off-line database to
                       permit accurate prevalidation of the payment requests.

           In addition, DFAS St. Louis did not identify disbursements covered by
           temporary obligations in LMP as unmatched disbursements (UMDs) until
           30 days after the system attempted to post the disbursements. As a result,
           the Army cannot ensure that LMP complies with the Federal Financial
           Management System Requirements (FFMSR) for matching obligations to
           disbursements and continued to incur additional costs to research and
           reconcile disbursements that cannot post correctly within LMP. In
           addition, the Army understated the dollar value of UMDs reported in DoD
           performance metrics.


Financial Management Systems Requirements
    Office of Management and Budget Requirements. OMB Circular No. A-127,
    “Financial Management Systems,” July 23, 1993, established policies and
    standards for executive departments and agencies to follow when developing,
    operating, evaluating, and reporting on financial management systems. The
    circular also stated that the Joint Financial Management Improvement Program
    (JFMIP) defines and issues the FFMSR. In December 2004, OMB revised the
    circular and transferred this responsibility from the JFMIP to the Chief Financial
    Officers Council and the Office of Federal Financial Management.

    Core Requirements Relative to Prevalidation. JFMIP Report No. SR-02-01,
    “Core Financial System Requirements,” November 2001, established a series of
    requirements relevant to the prevalidation of payments in future financial systems.
    Specifically, new financial systems should have the capability to:

           •   match payment requests to obligations, receiving reports, and
               acceptance information by document line item (CLIN/SLIN) and
               quantity before making any payment;


                                         28
            •   capture additional detailed data from the invoice, such as invoice
                number and date, unit price and quantity, description, discount terms,
                and obligating document reference;

            •   move from summary information to the detailed transactions that make
                up the commitment, obligation, and expenditure data within the
                system;

            •   generate a payment when the receiving report matches the obligation
                information on a payment request; and

            •   validate that payments will not cause a negative fund balance.

    Office of Federal Financial Management Report No. 01-06, “Core Financial
    System Requirements,” January 2006, also contains these requirements. DoD
    financial managers and system developers should ensure that new systems
    comply with established core financial system requirements and correct
    previously identified system deficiencies. To comply with these requirements,
    new financial systems should include the internal functionality to receive data
    from the DoD entitlement systems to accomplish automated obligation matching
    before allowing any payment to occur.


Future Financial System Development
    DoD has begun developing four new financial systems that will replace many of
    the legacy systems currently used in the prevalidation process. Table 2 shows the
    four systems and the projected implementation dates.

                       Table 2. Future Financial Systems
                                       Department Projected Implementation
                                        Utilizing           Dates
            System Name                    System          Initial        Final
  Defense Enterprise Accounting &         Air Force         2007          2009
  Management System (DEAMS)
  Navy ERP                                    Navy         2007           2011
  General Fund Enterprise Business            Army         2007           2010
  System (GFEBS)
  LMP                                         Army         2003           2010


    Future Systems’ Compliance with Prevalidation Requirements. A core
    objective of the DoD Business Transformation Agency is to eliminate existing
    DoD financial management weaknesses and deficiencies. The Deputy Under
    Secretary of Defense for Business Transformation is responsible for the rapid
    transformation of DoD business processes and systems. System program
    managers for the Army GFEBS, Navy ERP, and Air Force DEAMS have



                                         29
           included system requirements for an integrated prevalidation function.
           Specifically,

                   •   GFEBS is to prevalidate payments to the CLIN/SLIN level at least
                       98 percent of the time;

                   •   Navy ERP is to prevalidate payments to the CLIN/SLIN level; and,

                   •   DEAMS is to prevalidate payments to the CLIN/SLIN level.

           Implementing these requirements in the new financial systems will reduce manual
           intervention and increase the accuracy of accounting data. As the Military
           Departments implement the new financial systems, DoD financial managers and
           system developers must include the planned integrated prevalidation function to
           ensure FFMSR compliance. DoD began implementing phase one of the Standard
           Financial Information Structure in January 2006 and plans to finish phase one by
           January 2007. Phase one requires DoD Components to create Demand Unique
           Identifiers when activities commit funds. The Demand Unique Identifier is an
           alphanumeric combination that will track the obligations to the CLIN/SLIN level.
           The Office of the Deputy Under Secretary of Defense for Business
           Transformation, in conjunction with the Office of the Under Secretary of Defense
           (Comptroller)/Chief Financial Officer, should ensure that all new financial
           systems implement an integrated prevalidation module that prevalidates payments
           to the CLIN/SLIN level.


LMP Prevalidation Limitations
           The Army Materiel Command developed and began implementing LMP, the core
           financial system for the AWCF, without complying with the core financial system
           requirement that the system perform prevalidation functions internally with DoD
           entitlement systems. The Army also did not correct prevalidation problems
           identified in the legacy financial systems. 10 Specifically, LMP did not:
                   •   receive data from DoD entitlement systems to prevalidate commercial
                       payments and approve requests for payment, and

                   •   properly post accounting entries throughout the payment cycle.

           Instead, the Army continued to use an off-line database to compare entitlement
           and accounting data and provide approval for prevalidation requests. The
           database, managed by DFAS, contained errors in the accounting data. This
           resulted in prevalidation failures and the need for additional research and rework.
           Furthermore, whenever LMP could not match an actual disbursement to an
           existing obligation, it automatically created a temporary obligation. However,
           DFAS St. Louis would not report the payment as a UMD until 30 days later.


10
     In March 2006, the Army Program Executive Office, Enterprise Information Systems assumed
     responsibility for the future fielding and system functionality of LMP.



                                                   30
Integrated Prevalidation Functionality. Army financial and system managers
did not include an internal prevalidation function as part of the LMP
requirements. They also failed to develop the interfaces required to receive and
process prevalidation data from DoD entitlement systems within LMP and
approve prevalidation requests for payment. When establishing the LMP
financial requirements, the LMP Program Management Office failed to correct
long-standing deficiencies in the Army’s ability to prevalidate its AWCF
payments. DFAS financial management personnel told us that the Army intended
LMP to have the same functionality as the legacy systems it replaced, therefore
developers had no plans to develop the prevalidation requirement in LMP. As a
result, the implementation of LMP did not correct Army’s inability to match
payment requests with corresponding obligations, and DFAS continued to
complete prevalidation using an ineffective work-around outside the new
financial system.

LMP’s Ability to Perform Prevalidation. LMP would have the capability to
perform the prevalidation process within its system functionality if the Army had
implemented the SAP invoicing module as part of LMP. However, because the
Army did not want LMP to have disbursement capability in the invoicing module,
they did not purchase that functionality or develop an interface with the DoD
entitlement systems to accomplish prevalidation. LMP made the appropriate
accounting entries needed upon the receipt and acceptance of goods and services,
but did not make the required accounting entries when the vendor submitted a
payment request and an entitlement system requested prevalidation. Instead,
LMP recorded these accounting entries only after DFAS disbursed the payment
and LMP processed the disbursement transaction.

        Processing Notice of Receipt and Acceptance. LMP recorded the
receipt and acceptance of goods and services upon notice at either the receiving
activity or the source acceptance point. When receipt and acceptance occurs,
LMP:

       •   debits an inventory account (GLAC 15XX) or an expense account
           (GLAC 61XX) and the Undelivered Orders-Obligations Unpaid
           account (GLAC 4801), and

       •   credits either the Federal or public “Goods Receipt/Invoice Receipt”
           Accounts Payable accounts (GLAC 2110.1000 or .2000) and the
           Delivered Orders-Obligations Unpaid account (GLAC 4901).

        Processing the Receipt of Payment Request. When DFAS receives a
payment request from the vendor, LMP should debit a “Goods Receipt/Invoice
Receipt” Accounts Payable account (GLAC 2110.1000 or .2000) and credit the
proper Federal or Public Accounts Payable account (GLAC 2110.9100 or .9200).
Because vendors submit their payment requests directly to DFAS for entry into
entitlement systems, the entitlement systems must have the ability to interface
with LMP in order to properly update the accounts payable GLACs. A
prevalidation request sent to LMP by an entitlement system would have been the
first notification that a vendor had submitted a payment request and should have
triggered the immediate update to the accounts payable account in LMP.
However, LMP did not have the interface to accept or reject the prevalidation


                                    31
request files needed to automatically record these accounting entries. Instead,
LMP used the disbursement files to both update the accounts payable file to
reflect the receipt of a payment request and to liquidate the accounts payable after
the payment had occurred.

       The Army Program Executive Office, Enterprise Information Systems, in
coordination with DFAS, needs to develop an interface between LMP and DoD
entitlement systems that permits LMP to receive and match prevalidation data to
the data found in GLAC 4901 (by contract and shipment number) for each ACRN
and CLIN/SLIN invoiced by the vendor. Once matched, LMP should complete
the required GLAC entries to move the funds to the proper accounts payable
accounts and send an approval to pay notice to the entitlement system. If no
match is found, the interface should provide a denial code to the entitlement
system, identifying the reason(s) for denial. In addition, since the entitlement
system cannot process a prevalidation request without the receipt and acceptance
documentation, DFAS should develop business rules on how LMP will record
missing receipt and acceptance transactions for any request for payment for which
a corresponding entry in GLAC 4901 (by contract, shipment number, ACRN, and
CLIN/SLIN) cannot be found.

Accuracy of Data in Off-Line Database. Until LMP has the required internal
prevalidation functionality, DFAS must continue to use its off-line database.
However, DFAS needs to address problems with its off-line database routines.
DFAS St. Louis incorrectly matched prevalidation requests to GLAC 4801
instead of GLAC 4901, resulting in prevalidation failures. When Army field
activities entered receipt and acceptance transactions into LMP, LMP moved the
corresponding obligation dollar amounts from GLAC 4801 to GLAC 4901 and
established the accounts payable. As a result, these funds were no longer
available in GLAC 4801 for prevalidation purposes. DFAS should have been
prevalidating against GLAC 4901. In addition, because some Army field
activities did not always promptly enter receipt and acceptance documentation
into LMP, the obligation funds for some ARNs remained in GLAC 4801 and did
not transfer to GLAC 4901. To address this problem, DFAS must routinely
identify shipments with acceptance documents that were not previously recorded
in LMP and develop edit checks that prevent the prevalidation technicians from
approving prevalidation requests without the obligation and acceptance data
recorded correctly in LMP.

Resolving Unmatched Disbursements Within LMP. DFAS St. Louis did not
properly identify, research, and resolve UMDs in LMP and understated the dollar
value of Army UMDs. Whenever LMP received a disbursement transaction that
would not post to an existing obligation record, LMP automatically created a
temporary obligation, known as a “ZK” transaction, using the line of accounting
identified on the payment voucher. Once LMP created these “ZK” transactions,
DFAS St. Louis personnel stated that they considered the disbursements matched
and did not include them in their problem disbursement reports. DFAS St. Louis
personnel also stated that they thought their process complied with the DoD
FMR. They tracked the “ZK” transactions and attempted to post them to proper
obligations within 30 days. The creation of these temporary obligations occurred
without technicians performing the necessary research to obtain the actual



                                     32
   obligation documents and determining why the disbursements were unable to post
   to LMP.

   DoD FMR, volume 3, chapter 11, “Unmatched Disbursements, Negative
   Unliquidated Obligations, In-transit Disbursements, and Suspense Accounts,”
   January 2001, states that it is DoD policy to match disbursements to the
   corresponding obligation and requires that when a disbursement is recorded in the
   accounting system but not matched to a corresponding obligation, the
   disbursement shall be recorded as a UMD. DFAS St. Louis should report all
   “ZK” transactions as UMDs until resolved, because these “ZK” transactions were
   not properly matched to corresponding detail obligations. DFAS St. Louis should
   also perform a root cause analysis as to why these transactions occur. During our
   visit to DFAS St. Louis, we identified one likely reason for disbursements not
   posting to LMP. Technicians prevalidated LMP payments without first ensuring
   that an Army activity had accurately recorded the obligation in LMP. While
   researching denied prevalidation requests, DFAS technicians should have ensured
   that the field activities corrected the obligations balance in LMP before approving
   the request for payment. If they had verified the posting of the obligations, the
   system should have automatically posted the disbursement, avoiding the need for
   the “ZK” transactions.


Summary
   FFMSR specifies that core financial systems must have an automated obligation
   matching function. DoD is designing three future financial systems with the
   capability to perform prevalidation internally. However, the Army’s development
   of LMP did not include an internal prevalidation function. DFAS continued to
   use an off-line database developed to prevalidate payments in the legacy system.
   However, DFAS placed incorrect data in the database resulting in some
   prevalidation failures of payment requests. In addition, LMP automatically
   created temporary obligations to cover UMDs and DFAS St. Louis did not report
   the dollar value of these UMDs in accordance with the requirements in the DoD
   FMR.

   As a planned core financial system for the AWCF, LMP needs to comply with
   FFMSR. The Army Program Executive Office, Enterprise Information Systems
   should develop a plan for establishing and implementing the proper configuration
   to enable LMP to internally perform prevalidation. DFAS St. Louis should
   establish and implement internal controls to ensure the:

          •   use of GLAC 4901 when prevalidating payments in LMP,

          •   establishment of edit checks to prevent prevalidation technicians from
              approving prevalidation requests without the obligation and
              acceptance data recorded in LMP,

          •   recording of accounts payable at the time of the prevalidation
              approval, and



                                       33
           •   reporting of “ZK” transactions as UMDs.

    DFAS St. Louis should also perform root cause analysis to determine why the
    disbursements for which “ZK” transactions were established did not post
    automatically.


Recommendations, Management Comments, and Audit
  Response
    B.1. We recommend that the Deputy Under Secretary of Defense for
    Business Transformation, in conjunction with the Under Secretary of
    Defense (Comptroller)/Chief Financial Officer, monitor and ensure the
    implementation of an integrated prevalidation function for the Defense
    Enterprise Accounting and Management System, General Fund Enterprise
    Business System, and Navy Enterprise Resource Planning System. The
    financial systems should contain the internal functionality to receive data
    from DoD entitlement systems and perform prevalidation by matching
    payment requests to the appropriate detailed obligations at the contract line
    item number and sub-line item number level.

    Management Comments. The Deputy Under Secretary of Defense for Business
    Transformation concurred and stated that the Business Transformation Agency
    will ensure the Business Enterprise Architecture includes prevalidation
    requirements. The architecture will break down the current processes and define
    the specific requirements for entitlement, Standard Financial Information
    Structure compliance, and CLIN/SLIN level prevalidation.

    B.2. We recommend that the Army Program Executive Officer, Enterprise
    Information Systems, in coordination with the Deputy Director for
    Operations, Defense Finance and Accounting Service, develop system
    requirements and interfaces within the Logistics Modernization Program to
    prevalidate all commercial payments with DoD entitlement systems by
    contract and shipment number for each accounting classification reference
    number, contract line item number, and sub-line item number invoiced.

    Management Comments. The Program Executive Officer, Enterprise
    Information Systems concurred and stated that the LMP Program Manager will
    work with DFAS and the Army Audit Agency to develop the appropriate
    functionality and interfaces to support the prevalidation of DoD commercial
    payments. The Program Executive Officer also stated that the Program Manager
    will develop a short-term and a long-term strategy that would eventually lead to
    LMP encompassing all functionality associated with prevalidation and
    entitlements for AWCF. He also stated that the prevalidation requirements would
    be part of the calendar year 2007 Federal Financial Management Improvement
    Act attestation.

    B.3. We recommend that the Director, Defense Finance and Accounting
    Service St. Louis implement internal controls to ensure that prevalidation



                                       34
requests are properly matched to corresponding obligations and funds are
reserved in official accounting records by:

       a. Using the Delivered Orders - Obligations Unpaid account when
prevalidating payments in the Logistics Modernization Program.

       b. Establishing edit checks that would:

             (1) Identify shipments for which the Logistics Modernization
Program system has not recorded a Delivered Orders-Obligations Unpaid
account upon receipt of the goods and services,

              (2) Prevent prevalidation approvals until the appropriate
entries are made to the Delivered Orders-Obligations Unpaid account, and
Federal or Public Accounts Payable accounts, and

              (3) Establish business rules for how to resolve receipt and
acceptance transactions that have not been recorded for requests for
payment.

       c. Recording the entries to the Accounts Payable account and the
Delivered Orders-Unpaid Obligations account before prevalidation
approval.

Management Comments. The DFAS Deputy Director for Standards and
Compliance concurred and stated that DFAS will coordinate and work with the
LMP Program Manager to ensure the implementation of prevalidation
requirements in the LMP system. She also stated that DFAS will assist the LMP
Program Manager in establishing, developing, testing, and implementing the
system’s prevalidation requirements.

       d. Reporting all “ZK” transactions as unmatched disbursements until
the transactions post to corresponding detail obligations.

Management Comments. The DFAS Deputy Director for Standards and
Compliance nonconcurred and stated that the Army programmed the LMP system
to establish obligations to cover disbursements processed against Army funds
managed in the system. The Deputy Director also stated that the LMP system
processes disbursements and creates “ZK” transactions as programmed and
approved by the Army. The Army and DFAS later research and resolve these
“ZK” transactions.

Audit Response. The DFAS comments were not responsive. DoD FMR, volume
3, “Budget Execution Availability and Use of Budgetary Resources,” chapter 8,
“Standards for Recording and Reviewing Commitments and Obligations,” states
that before recording an obligation, the accounting office responsible for the
official accounting records of the fund holder shall have either a copy of the
obligation document or an electronic data interchange transaction set that
represents or supports an obligation. Since the prevalidation process requires
DFAS to match each disbursement to a corresponding detail obligation recorded
in LMP before making a payment, an actual obligation should have already


                                  35
existed for each of these “ZK” transactions. The DoD FMR further requires
DFAS accounting office and Army personnel to conduct specific levels of
research when a UMD occurs before recording another obligation to cover the
UMD. Automatically establishing obligations violates the requirement to record
obligations based on actual documentation and increases the risk of duplicate
obligations being established and improper and fraudulent payments going
undetected. DFAS should research the “ZK” transactions and report them as




                                  36
unmatched disbursements before establishing potentially duplicate obligations in
the LMP system. We request that DFAS reconsider its position and provide
additional comments on the final report.

      e. Performing root cause analysis on “ZK” transactions to determine
why they occur and the appropriate corrective action needed.

Management Comments. The DFAS Deputy Director for Standards and
Compliance concurred and stated that DFAS personnel will use Business Activity
Monitoring technology to perform root cause analyses to determine why “ZK”
transactions occur.




                                   37
           C. Vendor Payment Prevalidation
              Controls
           DFAS managers permitted the disbursement of vendor payments without
           ensuring that technicians had properly prevalidated all commercial
           payment requests. This occurred because DFAS Dayton and DFAS
           St. Louis implemented local procedures that contradicted the DoD
           prevalidation policy for all vendor payments. DFAS managers placed
           more emphasis on avoiding interest charges caused by late vendor
           payments. As a result, DFAS could have made payments that violate the
           requirements of Public Law 108-287. In addition, DFAS increased the
           risk of making erroneous payments to vendors and increased the
           likelihood that DoD would incur additional costs to properly post
           payments in the official accounting records.


Prevalidating Vendor Payments
    DFAS vendor payment offices entitle commercial payments that are not
    processed by DFAS Columbus using the MOCAS system. By FY 2000, DFAS
    had lowered the prevalidation threshold for vendor payments to $0. DFAS
    vendor pay locations process “for self” and “for others” payments. At DFAS
    vendor payment offices collocated with associated accounting stations,
    technicians prevalidate “for self” payments through the integration of the
    accounting and entitlement systems. Typically these “for self” payments were
    prevalidated without a problem. When a vendor payment office had to send a
    prevalidation request to an accounting station other than the one collocated with
    the payment office, it was considered a “for others” payment. DFAS
    Instruction 7000.7-I, “Payment Prevalidation Instruction for Commercial Pay
    Business Line,” March 2003, states that prevalidation approval must be based
    upon a positive response from the accounting station. Without receipt of a
    positive response, DFAS would not have assurance that an obligation
    corresponding to the payment request exists in accounting records. Public
    Law 108-287 requires that DoD organizations match disbursements that exceed
    $500,000 to corresponding obligations before they make payments.


Procedures at Vendor Payment Offices
    Two of the three DFAS field locations we visited had local policies and
    procedures that contradicted prevalidation guidance. DFAS Charleston had
    policies and procedures that were consistent with prevalidation guidance in Public
    Law 108-287 and DFAS Instruction 7000.7-I. However, DFAS Dayton and
    DFAS St. Louis had local policies and procedures that were inconsistent with
    prevalidation requirements.

    DFAS Dayton. Management at the DFAS Dayton vendor payment established
    procedures that allowed technicians to process “for others” payments before


                                        38
           receiving a positive acknowledgement from the official accounting station that an
           obligation existed that matched the payment request. DFAS Dayton vendor
           payment procedures advised entitlement technicians to process payments valued
           at less than $2,500 after 3 days regardless of whether technicians received
           confirmation that an obligation existed in the official accounting records. For
           payments valued at $2,500 or more, entitlement technicians had to wait 10 days,
           before processing payments without a positive confirmation. When questioned
           why these procedures were in place, DFAS Dayton personnel told us that their
           primary concern was to avoid paying interest to vendors for late payments. 11
           However, making payments that have not been prevalidated may result in
           inaccurate or erroneous payments and could cause DFAS to incur additional costs
           to research and resolve errors. DFAS Dayton procedures did not comply with the
           DFAS Instruction 7000.7-I requirement that the payment office receive a positive
           response from the accounting station before making a payment. In addition,
           DFAS Dayton could have made payments that violate the requirements of Public
           Law 108-287 by allowing disbursements without confirming that corresponding
           obligations existed in the accounting records.

           DFAS St. Louis. DFAS St. Louis lacked sufficient internal controls to ensure
           that payment requests matched to the appropriate obligations before making “for
           others” payments. DFAS St. Louis vendor pay technicians approved payment
           requests before obtaining a positive verification from the accounting station that a
           corresponding obligation existed. DFAS St. Louis processed payments after
           10 days, whether or not it received a prevalidation approval from the accounting
           station. DFAS St. Louis personnel also told us that their priority was to make
           timely payments and avoid making interest payments to vendors. During our site
           visit, DFAS St. Louis discontinued the practice of processing payments without
           receiving prevalidation approvals. However, DFAS St. Louis had not updated its
           policies and procedures to require that technicians receive prevalidation approvals
           from accounting stations before processing payments. DFAS St. Louis should
           revise its procedures to ensure compliance with prevalidation requirements.


Conclusion
           Managers at two DFAS field locations established a local control environment
           that permitted the circumvention of DoD prevalidation policy. By not requiring
           positive confirmation on all prevalidation requests before approving vendor
           payments, DFAS failed to comply with DFAS Instruction 7000.7-I. As a result,
           DFAS could have made payments that violate the prevalidation requirements in
           Public Law 108-287. Managers at DFAS Dayton and DFAS St. Louis placed a
           higher priority on complying with the Prompt Payment Act than with
           prevalidation requirements. The additional costs incurred to correct payments
           that have not been prevalidated may exceed the cost of interest accrued by
           waiting and ensuring that a proper obligation existed in the accounting records.



11
     The Prompt Payment Act requires Federal agencies to make payments in a timely manner. If a payment
     is late, the contractor is entitled to an interest penalty payment.



                                                    39
Recommendations and Management Comments
    C. We recommend that Deputy Director of Operations, Defense Finance and
    Accounting Service:

           1. Direct field locations to cease making vendor payments unless
    technicians receive positive confirmation from the accounting stations that
    obligations exist in the official accounting records that correspond with the
    payment requests.

           2. Rescind local policies and procedures that do not comply with the
    standard prevalidation procedures in the DoD Financial Management
    Regulation and Defense Finance and Accounting Service
    Instruction 7000.7-I.

    Management Comments. The DFAS Deputy Director for Standards and
    Compliance concurred and stated that DFAS now has controls in place to ensure
    that vendor payment offices will not make payments without first obtaining
    approval from the accounting station. She also stated that DFAS has rescinded all
    local policies and procedures that do not comply with standard prevalidation
    procedures.




                                       40
Appendix A. Scope and Methodology
   We evaluated the controls over the prevalidation of commercial contract and vendor
   payments. We assessed DFAS implementation of the DoD prevalidation plan and
   DoD’s progress in reducing problem disbursements. To identify the control
   environment at DFAS, we interviewed management and prevalidation technicians to
   gain their perspective on the importance placed on prevalidation within the
   organization. To determine the control activities related to prevalidation policies
   and procedures, we interviewed DFAS personnel and determined the policies and
   procedures they followed. We reviewed the DoD FMR guidance for commercial
   payment entitlement, accounting, and disbursement. We also reviewed the policies
   and procedures in place for changing, entering, and verifying data within the
   prevalidation process and maintaining supporting documents. To determine whether
   DFAS monitored prevalidation issues and problem disbursements, we reviewed
   management reports, identified reoccurring problems, and obtained documentation
   supporting corrections. In addition, we reviewed the entitlement procedures to
   determine whether information sent for prevalidation was correct.

   We reviewed the contract payment process including the entitlement procedures at
   DFAS Columbus and the prevalidation procedures at DFAS Charleston, DFAS
   Dayton, and DFAS St. Louis. From the DFAS organizations, we obtained the EUD
   files, MOCAS invoice line item and disbursement history files, and the Contract
   Payments Not Posting Automatically files for the period of March 1 through
   June 16, 2005. Using ACL, we performed data mining techniques to isolate
   subpopulations of known or potential errors in the entitlement and prevalidation
   records. See Appendix D for details concerning the use of data mining techniques.
   We then conducted attribute sampling of five subpopulations to test whether controls
   were effective. See Appendix E for the statistical sampling methodology. To test
   the samples, we obtained supporting documentation for the contract payments from
   the Electronic Document Access and Electronic Document Management systems. In
   addition, we used the Wide Area Work Flow, Web Invoicing System, and the
   Electronic Data Interchange systems to gather payment requests and receiving
   reports.

   We reviewed the vendor payment process at DFAS Charleston, DFAS Dayton, and
   DFAS St. Louis from June 27 through July 1, 2005. We reviewed policies and
   procedures, interviewed personnel, and conducted a walkthrough of the vendor
   payment process at the three DFAS field locations. Our review at DFAS Charleston
   did not identify policies and procedures contradictory to the prevalidation guidance.
   Therefore, we did not conduct additional tests at DFAS Charleston. At DFAS
   Dayton and DFAS St. Louis, we found local policies that were inconsistent with
   prevalidation requirements. We judgmentally reviewed payments at DFAS Dayton
   and DFAS St. Louis from October 24 through 28, 2005, to identify whether internal
   controls were sufficient to ensure compliance with DFAS Instruction 7000.7-I and
   Public Law 108-287. Specifically, we judgmentally selected “for others” payments
   to determine whether each payment received a positive prevalidation approval
   before disbursement. In addition, we reviewed the system plans and conducted
   interviews with system support personnel to gain an understanding of prevalidation
   function for



                                        41
      the future Army, Navy, and Air Force financial systems. We performed this audit
      from June 2005 through July 2006 in accordance with generally accepted
      government auditing standards.

      Use of Computer-Processed Data. The Data Mining Directorate, Office of the
      Deputy Inspector General for Policy and Oversight conducted limited tests of
      reliability of data from the EUD and MOCAS systems by comparing the files to
      record layouts, comparing totals, and reviewing the data for valid entries. We also
      relied on additional evidence to validate data integrity. We compared the data used
      in our samples with physical documentation used to establish the entitlement and
      prevalidation records. Nothing came to our attention during these procedures that
      caused us to doubt the reliability of the computer-processed data. Therefore,
      although we did not perform a formal reliability assessment of the computer-
      processed data, we were able to use the information in conjunction with physical
      documentation to test the controls over prevalidation.

      Use of Technical Assistance. Two directorates of the Office of the Deputy
      Inspector General for Policy and Oversight assisted on this audit. The Data Mining
      Directorate imported the original files from the MOCAS and EUD systems into ACL
      and conducted limited tests of reliability on the computer processed data. In
      addition, the Quantitative Methods Directorate assisted in the development of the
      statistical analysis presented in this report.

      GAO High-Risk Area. GAO has identified several DoD high-risk areas. This
      report provides coverage of the Approach to Business Transformation, Business
      Systems Modernization, and Financial Management high-risk areas.


Prior Coverage
      During the last 5 years, GAO and the DoD IG have issued three reports discussing
      prevalidation and commercial payment processing. Unrestricted GAO reports can
      be accessed over the Internet at http://www.gao.gov. Unrestricted DoD IG reports
      can be accessed at http://www.dodig.mil/audit/reports.

GAO
      GAO Report No. GAO-05-521, “DoD Problem Disbursements: Long-standing
      Accounting Weaknesses Result in Inaccurate Records and Substantial Write-offs,”
      June 2005

      GAO Report No. GAO-03-727, “DoD Contract Payments: Management Action
      Needed to Reduce Billions in Adjustments to Contract Payment Records,”
      August 2003

DoD IG
      DoD IG Report No. D-2005-100, “Identification and Reporting of DoD Erroneous
      Payments,” August 17, 2005

                                           42
Appendix B. Glossary
   Contract Financing Payments. Contract financing payments are authorized
   Government payments to a contractor before the receipt of goods or services.
   Financing payments include advance payments, performance-based payments,
   commercial advance and interim payments, progress payments, and interim
   payments under a cost reimbursement contract. Financing payments do not include
   invoice payments, partial delivery payments, or lease and rental payments. DoD
   intends contract financing payments to be self-liquidating through contract
   performance.

   Commercial Payments. Commercial payments are contract payments made to
   contractors through formal long-term contract instruments and vendor payments
   made on contracts not administered by the Defense Contract Management Agency
   (DCMA). Non-contractual payments to businesses and individuals are also
   considered commercial payments.

   Entitlement. Entitlement is the process of preparing a payment for disbursement. It
   includes matching the data provided on the vendor invoice to the data provided on
   the receiving report and contract. The entitlement process ensures that the payment
   is for goods or services received in compliance with the specific contract terms.

   Elimination of Unmatched Disbursements System. The EUD system is used by
   DFAS to match entitlements in the pay system to obligation records in the
   accounting system. The system consists of the Pay Prevalidation Module and two
   Accounting Prevalidation Modules (the Accounting Prevalidation Module and the
   Unisys Accounting Prevalidation Module). The Pay Prevalidation Module receives
   entitlement information and sends it to the Accounting Prevalidation Module. The
   Accounting Prevalidation Module matches the payment information to the
   appropriate accounting station for processing and identifies potential errors that
   prevented a proper match or returns an approval to the Pay Prevalidation Module.

   Invoice Payments. Invoice payments are disbursements of monies to contractors
   under a contract or other authorization for supplies or services accepted by the
   Government.

   Negative Unliquidated Obligation (NULO). NULOs are created when the
   disbursement transaction that is matched to the correct detail obligation by the
   accounting stations exceeds the amount of available obligation.

   Obligation. Obligations are orders placed, contracts awarded, services received,
   and similar transactions during an accounting period that will require payment
   during the same or a future period. The amount of obligations incurred is segregated
   in the accounting record into undelivered orders and expended authority paid or
   unpaid general ledger accounts.

   Payment Requests. Payment requests are bills submitted in the form of invoices or
   contract financing payments submitted by the vendor.




                                         43
Performance-Based Payments. Performance-based payments are contract
financing payments that DoD makes based on contractor performance that is
measurable and quantifiable, such as accomplishment of defined events or other
quantifiable measures.

Prevalidation. Prevalidation is the process of matching a proposed disbursement
with a specific recorded obligation in the accounting system before making a
payment.

Problem Disbursements. Problem disbursements include UMDs and NULOs that
occur when expenditures cannot reconcile with the official accounting records.
Problem disbursements also include in-transit disbursements and collections that
have been reported to the Treasury Department but either have not been received by
the accounting station or have been received but not processed or posted.

Progress Payments. Progress payments are contract financing payments made
based on costs incurred by the contractor as work progresses or on a percentage or
stage of completion. The payments liquidate based on the recoupment rate
established within the contract as the contractor provides goods or services.

Unmatched Disbursements. UMDs are disbursement transactions that have been
received by an accounting station but not matched to the correct obligations.

Unliquidated Obligation (ULO). ULOs are obligation amounts not liquidated by
disbursements.




                                     44
Appendix C. Contract Payment Prevalidation
            Process
    The contracting offices of the Military Departments and Defense agencies place
    requirements for goods and services on contracts. To request payment for goods or
    services placed on contracts, contractors submit invoices or contract financing
    payment requests through the mail or electronically using the Wide Area Work
    Flow, the Virtual Area Network, or the Web Invoicing System. Entitlement
    personnel at DFAS Columbus scan all hard copy payment requests into the
    Electronic Document Management system for processing by a contract payment
    system. Electronic data enters through an Electronic Data Interchange which routes
    the data to MOCAS for processing. DFAS Columbus entitles and pays most DoD
    contract payments. In FY 2005, DFAS Columbus made $276 billion in contract
    payments.


MOCAS Payment Entitlement
    Entitlement of Payment Requests. For active contracts, MOCAS receives and
    stores payment request data in the YDF1 file and invoice line item and ACRN level
    data in the YDF2 file. Entitlement technicians or the Automated Payment of
    Invoices system matches the payment request to its corresponding contract and
    acceptance data and determines the amount to be paid to the contractor. DFAS
    Columbus uses the Automated Payment of Invoices system to automatically process
    payment requests for contracts without special payment instructions. Otherwise,
    entitlement technicians process the payment request using the Entitlement
    Automation System. If the payment request requires research, technicians use the
    Contract Reconciliation System and the Standard Contract Reconciliation Tool to
    resolve any conflicts. Once the manual entitlement process is complete, the
    Entitlement Automation System generates a Form 477 “Advice of Payment” and a
    Form 457 “Fiscal Posting Slip,” and creates a batch file. The Entitlement
    Automation System sends the Forms 477 and 457 to the Electronic Document
    Management system and the batch file updates MOCAS. A lead accounting
    technician reviews all payments over $1 million, all “force through” payments used
    when a valid payment request would be rejected by the standard MOCAS process,
    and 10 percent of the remaining entitlement records. Both the manual and automatic
    payment requests requiring prevalidation then enter the MOCAS ND01 hold file.
    From this file, MOCAS generates an authorization request transaction which
    contains the information needed to prevalidate the payment.

    Contract Financing Payments. Contract financing payments are paid to a
    contractor prior to acceptance of goods or services. Contractors may submit
    financing payment requests when authorized by the contract terms. The contractor
    computes the contract financing payment requests on a whole contract basis with
    distribution only to the ACRN level or on a CLIN/SLIN basis depending on the
    financing option written in the contract. The DoD Financial Acquisition Regulation
    permits the contracting officer to choose between 11 different financing options for
    contracts that authorize financing payments and incorporates appropriate terms
    within the contract. For example, the contract may require payments be line-item

                                         45
    specific in which case payment requests must contain the CLINs. The contract may
    also require contract-wide proration of payments in which case the entitlement
    technicians must allocate the amount charged on the payment request to all of the
    ACRNs based on rates written in the contract.

    Contractors submit contract financing payment requests to DFAS Columbus through
    the same systems as invoices. Once entitled, the accounting station establishes a
    work-in-progress line in the accounting system. When the contractor submits a
    payment request for completed work, a percentage of that payment request, called
    the liquidation amount, reduces the work-in-progress line.


Prevalidation of Contract Payments
    Prevalidation Request. Once DFAS Columbus entitles the payment request, if the
    total value of the payment request exceeds the prevalidation threshold, DFAS
    Columbus sends an authorization request transaction through MOCAS to the EUD
    system. At that time, the EUD system assigns an ARN to each line item on the
    payment request. The ARN ties together all prevalidation requests, denials,
    approvals, and payment notices. The initial prevalidation request, called the initial
    “7” record, is sent to the Accounting Prevalidation Module used by the various
    DFAS accounting sites. For integrated accounting systems, the Accounting
    Prevalidation Module searches the accounting records for a matching obligation line
    and determines whether sufficient funds are available to cover the amount of the
    ARN. If the system does not find a match or the funds are insufficient, the system
    denies the prevalidation request and assigns a reason code describing what elements
    the system could not match. Based on the reason code, the system will either route
    the ARN to the payment office (DFAS Columbus) or the accounting station for
    correction, manual posting, or resubmission. The record containing the reason codes
    is called the payment authorization notice (“8” records). For non-integrated
    accounting systems, the DFAS Columbus prevalidation technician sends the
    prevalidation request by e-mail to the accounting station.
    Reservation of Funds. Once the system or the prevalidation technician locates the
    matching obligation and identifies sufficient funding, the system assigns a code
    indicating approval. For non-integrated accounting systems, the DFAS Columbus
    technician assigns the ARN a code indicating approval once the accounting station
    responds with an approval. At this time, the system or technician should reserve
    funding by moving the amount of the authorized request transaction from an
    Obligations Unpaid GLAC 4801 to a separate budgetary GLAC 4901 for Accrued
    Expenditure Unpaid. The system or technician should then record an Accounts
    Payable, if not previously established. However, if the system records the Accounts
    Payable at the time of goods or services receipt, then the funding would have
    previously moved to the appropriate GLAC. In this case, the initial ARN matches
    against the reserved funds and the approved ARN does not post additional entries.
    The EUD system returns the approval to MOCAS, which schedules it for payment.

    Payment Notice. Upon disbursement, DFAS Columbus uses the MOCAS
    sub-voucher file to send payment records to the EUD system, other DFAS centers,
    Department of Treasury, and a history file. The ND10 file contains the disbursement
    records sent to the EUD system. DFAS Columbus extracts data from the ND10 file

                                         46
to generate the payment notices (“9” records) that are then sent to the accounting
station to remove the reservation of funds and move the ARN to history status. At
the same time, DFAS Columbus sends a separate file to each of the DFAS centers (a
contract payment notice file to DFAS Denver, a 110 daily report to DFAS
Indianapolis, and a Financial Reporting System file to DFAS Cleveland). DFAS
uses these files to post the disbursements in the accounting systems. See the
diagram on the next page for a detailed flowchart of the contract payment
prevalidation process.




                                    47
Contract Payment Prevalidation Process




                                   48
Appendix D. Data Mining Methodology
   The Data Mining Directorate imported into ACL three EUD databases obtained from
   DFAS Indianapolis, three MOCAS databases obtained from DFAS Columbus, and
   three accounting station databases obtained from DFAS Dayton, DFAS St. Louis,
   and DFAS Charleston. Table D-1 shows the nine files and their populations
   imported into ACL.

                       Table D-1. Populations for Testing
                                                                    Total
                              File                                Population
           Source            Name              Description        (Records)
     EUD                   “7” Record    Prevalidation Requests         449,147
                           s
     EUD                   “8” Record    Payment Authorizations         519,104
                           s
     EUD                   “9” Record    Payment Notices                357,231
                           s
     MOCAS                 YDF1          Invoice History              5,424,939
     MOCAS                 YDF2          Invoice Line Items           1,306,753
     MOCAS                 NC50          Disbursement and               870,800
                                         Adjustment Records
     DFAS Dayton           CPN           Contract Payments Not           82,523
                                         Posting Automatically
     DFAS St. Louis        900 status    Payments Not Posting             3,445
                           and Rejects   Automatically
     DFAS Charleston       Indata        Payments Not Posting           183,453
                                         Automatically



   Tests of Reliability
   The Data Mining Directorate performed limited tests of reliability on the data. The
   Data Mining Directorate imported files based on the MOCAS record layouts
   provided by DFAS Columbus and the software manuals for the EUD files. The Data
   Mining Directorate tested the data for invalid entries and verified field totals in ACL
   with the original data populations. The auditors evaluated the EUD records within
   ACL for anomalies and worked with DFAS systems personnel to resolve them. We
   did not conduct an extensive review of the system controls and therefore used
   corroborating evidence to support data reliability. During the audit, auditors
   compared the computer-processed data to physical documentation, including
   payment requests, receiving reports, and EUD screens.

   We examined prevalidation, entitlement, and disbursement records to identify
   known or potential errors. Errors in entitlement or prevalidation records indicate
   potential internal control weaknesses. We used ACL to analyze the records and
   identify data that were missing or changed during the disbursement cycle. Missing
   data may result in erroneous prevalidation actions by the accounting systems. In
   addition, unauthorized changes may bypass the prevalidation process. By testing the

                                          49
      data for known or potential errors, we isolated subpopulations for testing purposes.
      We 100-percent tested or statistically sampled the subpopulations to determine
      whether internal controls were adequate.


Methodology for Testing Controls
      Analysis of EUD Data Files. We used ACL to analyze the EUD files and identify
      areas within the prevalidation process that required internal control testing. The
      EUD files recorded prevalidation data using ARNs. The population consisted of
      449,147 unique ARNs. For each unique ARN, the prevalidation file should contain
      a “9” record showing payment, an additional “7” record canceling that ARN, or a
      “7” record in suspense awaiting resolution. We performed a series of analytical
      procedures to identify canceled and denied ARNs. We used the status codes
      assigned by the EUD system to “7” records and the reason codes assigned to
      “8” records to determine the canceled and denied ARNs. The figure shows the
      results of our analysis of the ARNs processed by DFAS Columbus from March 1,
      through June 16, 2005.


                                                    449,147 ARNs
                                                                                           Canceled
                                                       Suspended                            58,094
          Approved                                      33,822
           357,231

                                   Approved         Denied       Resubmitted          Approved         Never
                                    22,876          10,296           650               22,248         Approved
      Not                                                                                              35,846
    Denied        Denied
                  91,185                              Denied              Not Denied
    266,046
                                                      2,711                19,537
                                                                                            Denied       Not
                                                                                           13,490       Denied
              Denied Never                                             All Denied                       22,356
               Canceled                                                 117,682
                101,482

                                             Reason code 031                           Other Reason
                                             Manual Processing                            Codes
                                                Required                                 20,240*
                                                 97,441

                                                                      Accounting          Pay          Other
                                                                       Station           Office        1,613
                                                                        16,383           2,440

    *196 ARNs were denied for reasons related to more than one responsibility code.

      Status of ARNs Processed from March 1 through June 16, 2005


                                                            50
        Prevalidation Status Codes. The EUD system uses status codes to track the
progress of each ARN. Every time the ARN receives a new status, the previous
status moves to the history file. For example, when the EUD system first sends a
“7” record, it is assigned a unique ARN with status code “A” (new automated
“7” record) or “M” (new manual “7” record) representing an initial request. If an
ARN receives a denial code during the prevalidation process, it updates the
“7” record status code with an “E” (automated accounting denied) or “F” (manual
denied). In addition, an ARN may receive a status code “C” (cancel) or status codes
“I” and “J” (approval to pay) during the process. We analyzed the status codes for
each ARN and determined that:

       •   357,231 ARNs received an approval and were no longer in suspense.
           These ARNs matched to a “9” record signifying payment;

       •   33,822 ARNs were still in suspense awaiting approval or cancellation;

       •   58,094 ARNs were canceled.

        Shipments with Canceled ARNs. We isolated the 58,094 canceled ARNs
for further testing. If the original entitlement record was accurate and correct, the
ARN should not have required cancellation unless DoD personnel or the vendor
recalled the payment. If there were multiple ARNs associated with a single
shipment, DFAS canceled all ARNs associated with the shipment if one ARN
required cancellation. We sampled the entire shipment to avoid reviewing a
correctly entitled ARN that canceled because of the incorrect entitlement of an
additional ARN on the same shipment. The 58,094 ARNs were associated with
26,984 unique shipments. Therefore, we identified a subpopulation of
26,984 shipments for further testing.

        ARNs Approved Without a Denial Code. We analyzed the
391,053 (357,231 + 33,822) approved and suspended ARNs to determine whether
they required manual intervention to process prevalidation. If the ARN received a
status code “E” or “F,” then the EUD system denied the ARN during the process and
the technicians were required to manually intervene. Of the 357,231 approved and
paid ARNs, 266,046 received an approval without a denial code. Our analysis also
showed that another 22,876 of the 33,822 ARNs in suspense received an approval
without a denial code. In total, 288,922 (266,046 ARNs in history status plus 22,876
ARNs in suspense status) of the 449,147 ARNs (64.3 percent) received an approval
without a denial code.

      Denied - Manual Processing Required. To identify all denied ARNs we
combined denied ARNs in paid status, in suspense, or canceled. We identified
117,682 ARNs that were denied based on the status code “E” or “F.” The denied
ARNs consisted of:

       •   91,185 ARNs that DFAS eventually approved and paid,

       •   10,296 ARNs still in suspense,

       •   2,711 ARNs canceled after approval, and

       •   13,490 ARNs canceled without an approval.

                                      51
We divided the 117,682 ARNs into two categories: (a) ARNs assigned denial code
“031 Manual Processing Required” and (b) ARNs assigned all other denial codes.
We identified that the EUD system assigned denial code 031 to 97,441 ARNs. Each
required a manual approval by the accounting station after verifying that the ARN
was accurate. It was not possible to determine whether accounting stations
accomplished any corrective actions before granting approval. We determined that
entitlement issues we related to these ARNs would be identifiable during other tests
and, therefore, did not test this data further. The EUD system assigned the
remaining 20,240 ARNs specific denial codes that identified a problem when
matching the ARN to the official accounting record.

        Denied - Identified Mismatch. We isolated the remaining 20,240 denied
ARNs between those sent to DFAS Columbus and those sent to an accounting
station for correction. Along with the denial code, the EUD system assigned a
responsibility code indicating where to send the ARN for correction. To identify
what denial codes the 20,240 ARNs received, we matched “8” records to the denied
ARNs and determined that:

       •   The EUD system denied 16,383 ARNs because of accounting reasons and
           sent them to an accounting station for correction. We isolated this
           subpopulation to test whether controls were in place to ensure activities
           had loaded accounting information timely and correctly to allow
           payments to post.

       •   The EUD system denied 2,440 ARNs because of entitlement reasons and
           sent them to DFAS Columbus for correction. We isolated this
           subpopulation to test whether entitlement personnel entered the correct
           information based on contract and payment request terms.

We did not review the remaining 1,613 ARNs because the denial codes did not relate
to the accuracy of the accounting information. For instance, denial code “016-
quantity not numeric” is not a problem with the proper loading or matching of funds.

Analysis of Invoice Line Item Data Files. We obtained the YDF2 Invoice Line
Item files to test the information entering prevalidation. Of the
1,306,753 transactions, 329,769 were for the period March 1 to June 16, 2005.
Using ACL, we isolated 9,964 records that did not contain the contract number,
ACRN, CLIN, and shipment number information necessary to prevalidate the
payment. To narrow the population further, we used the YDF1 Invoice History file
to identify and remove any record with a payment request amount below the
prevalidation threshold. This resulted in a subpopulation of 7,058 records that
required prevalidation and were missing the contract number, ACRN, CLIN, or
shipment number.

Analysis of Disbursements History Data Files. We used the 870,800 records in
the NC50 file, to test the accuracy of the entitlement and prevalidation information.
The NC50 file contained 311,657 records that matched a “9” record on the same
contract number, shipment number, CLIN, ACRN, and voucher number. We then
compared the disbursement records to the prevalidation records to identify ARNs
that were potential duplicates or were approved and disbursed the same day or more
than 23 days later, and transactions that contained shipment lines in both paid and
suspense status or contract information that did not match the disbursement records.

                                      52
     We reviewed the potential duplicates to determine whether DFAS disbursed a
     shipment more than once. We tested the payments approved and disbursed the same
     day to determine whether controls prevented payments from bypassing prevalidation
     reviews and approvals. We reviewed the payments approved more than 23 days
     after the approval to determine what factors contributed to prevalidation delays and
     potential interest charges. According to the Prompt Payment Act of 1998, section
     3903, title 31, United States Code, invoices may be paid no earlier than the 23rd day.
     Lastly, we reviewed shipments with payments in suspense and paid status to ensure
     that controls prevent DFAS from disbursing invoice lines separately. The
     comparison used to determine whether contract information matched between EUD
     and the NC50 file identified records that were not potential errors because the
     software considered a blank CLIN/SLIN field and all zeros in the CLIN/SLIN field
     to be a mismatch. Therefore, we did not use this sample for statistical sampling.
     However, 3,307 ARNs were missing the CLIN in the prevalidation file, but not in
     the NC50. This condition indicates that not all available information is passing to
     prevalidation.

             Adjustment Records. We used ACL to identify a population of adjustment
     transactions for payment requests that had already been prevalidated and paid. We
     examined this population to determine whether the adjustments corrected entitlement
     errors that DFAS personnel should have identified during the entitlement and
     prevalidation process. The 870,800 records in the NC50 file contained both
     disbursements and adjustments made to payments after prevalidation. We extracted
     68,776 adjustment transactions based on the type of payment code (“8” and “9”). To
     identify adjustments made to previously prevalidated and paid ARNs, we matched
     the 68,776 adjustments to the history 9 records by contract number, shipment
     number, and ACRN fields. As a result, we obtained a subpopulation of
     3,598 previously approved ARNs with an adjustment on the same shipment and
     ACRN. These transactions were isolated to test whether controls ensured that the
     entitlement was correct, the EUD system identified errors, and prevalidation
     technicians corrected the errors before DFAS disbursed the payments.


Subpopulations for Testing
     Based on this analysis we isolated five subpopulations for further statistical testing.
     Table D-2 shows the five subpopulations for statistical sampling and the number of
     records.

                Table D-2. Subpopulations for Statistical Sampling
                       Subpopulation                     Number of Records
       Shipments with canceled ARNs                                   26,984
       ARNs denied for accounting reasons                             16,383
       ARNs denied for entitlement reasons                             2,440
       Entitlement records missing information in MOCAS                7,058
       ARNs with adjustments on the same shipment and ACRN             3,598




                                            53
Appendix E. Statistical Sampling Methodology

Sampling Plan
    Sampling Purpose. We used statistical sampling to estimate the number of errors
    associated with selected types of internal control weaknesses. In particular, we
    estimated the number of inaccurately entitled shipments with canceled ARNs, ARNs
    denied for accounting reasons, ARNs denied for entitlement reasons, entitlement
    records missing information in MOCAS, and adjustments made to correct
    entitlement errors.

    Sampling Design. We applied statistical sampling to five sets of ARNs or shipment
    records, each selected through data mining to focus on particular potential internal
    control weaknesses. Because some of the subpopulations may overlap, the
    individual projections for the subpopulations cannot be added to each other. For this
    reason, and because each subgroup of actions was selected on different criteria, the
    results cannot be generalized to the population of all prevalidation requests.

    We selected the subpopulations based on the known or potential errors identified
    during the data mining analysis. We developed tests for controls specific to each
    subpopulation and drew simple random samples from each of the five
    subpopulations. We used statistical sampling to project the audit results to their
    respective subpopulations. See Appendix D for the analytical procedures used to
    identify the subpopulations. Table E-1 identifies the five subpopulations and the
    number of randomly selected sample items tested.

                 Table E-1. Subpopulations Statistically Sampled
                                                                          Sample
                       Subpopulation                       Records         Size
     Shipments with canceled ARNs                           26,984            69
     ARNs denied for accounting reasons                     16,383            68
     ARNs denied for entitlement reasons                     2,440            67
     Entitlement records missing information in MOCAS        7,058            68
     ARNs with adjustments on the same shipment and ACRN     3,598            67

Sampling Results
    Shipments with Canceled ARNs. Table E-2 identifies the statistical estimates of
    shipments with canceled ARNs due to incorrect entitlement.
                    Table E-2. Inaccurately Entitled Shipments with
                                    Canceled ARNs
                             (90-Percent Confidence Level)
              Lower Bound         Point Estimate        Upper Bound
                  5,912                    8,604                     11,295
    We are 90-percent confident that between 5,912 and 11,295 out of 26,984 shipments
    entered prevalidation with entitlement errors.

                                           54
           ARNs Denied for Accounting Reasons. The Quantitative Methods Directorate
           made three independent projections from the same sample which was drawn from
           the subpopulation of 16,383 ARNs. 1 Table E-3 shows, by type of error, the
           statistical estimates of ARNs denied because of accounting reasons.

                            Table E-3. ARNs Denied for Accounting Reasons
                                    (96.6-Percent Confidence Level)
                    Type of Error              Lower         Point        Upper
                                               Bound       Estimate       Bound
       Obligation not loaded in the                        1,740            3,614                5,487
        accounting system
       Incorrect ACRN, CLIN, or insufficient               6,680            8,914               11,148
       unliquidated obligation in the accounting
       record
       Identified as accounting error, although            1,349            3,132                4,915
       entitled incorrectly


           We are 96.6-percent confident that between 1,740 and 5,487 out of 16,383 ARNs did
           not have the obligation entered in the accounting records before prevalidation. We
           are 96.6-percent confident that between 6,680 and 11,148 out of 16,383 ARNs did
           not have the ACRN or CLIN/SLIN established correctly in the accounting system or
           the unliquidated obligation balance in the accounting record was less than the
           prevalidation request. We are 96.6-percent confident that DFAS Columbus
           incorrectly entitled between 1,349 and 4,915 out of 16,383 ARNs.

           ARNs Denied for Entitlement Reasons. Table E-4 identifies the statistical
           estimates of ARNs denied because of entitlement reasons.

                     Table E-4. ARNs Denied for Entitlement Reasons
                              (90-Percent Confidence Level)
                 Lower Bound            Point                 Upper
                                       Estimate               Bound
                      1,277                        1,530                            1,782


           We are 90-percent confident that DFAS incorrectly entitled between 1,277 and 1,782
           out of 2,440 ARNs.

           Entitlement Records Missing Information in MOCAS. The Quantitative
           Methods Directorate calculated statistical projections for three different types of
           errors identified by testing invoice line item records, used as the entitlement records,
           for missing data in MOCAS such as the contract number, ACRN, CLIN/SLIN, or
           shipment number. Even though we made three projections from the same sample,


1
    The Bonferroni correction was applied to determine the overall error risk, which is the complement of the
    confidence level. This adjustment resulted in a simultaneous confidence bound of 90 percent. This means
    that we can be 90 percent confident that all three intervals simultaneously include their respective number of
    subpopulation errors. Conversely, there is a 10 percent risk that at least one of these intervals does not
    encompass its number or errors.

                                                           55
we did not apply the Bonferroni correction because these three sample results are not
independent of each other. Table E-5 shows, by type of error, the statistical
estimates of invoice line items missing information in MOCAS.

            Table E-5. Entitlement Records Missing Information in
                                    MOCAS
                          (90-Percent Confidence Level)
                                      Lower       Point     Upper
            Type of Error             Bound      Estimate  Bound
Payment request missing CLIN/SLIN            831     1,453         2,075
information
Payment request information not used to      2,163   2,906         3,650
develop entitlement record
Total entitlement records missing            3,623   4,359         5,096
information


We are 90-percent confident that between 831 and 2,075 out of 7,058 payment
requests used to develop entitlement records were missing the CLIN/SLIN
information necessary for prevalidation. We are 90-percent confident that between
2,163 and 3,650 out of 7,058 entitlement records did not contain all of the
information provided on the supporting contract and payment request. We are
90-percent confident that between 3,623 and 5,096 out of 7,058 entitlement records
were missing information in MOCAS. Some sample items had more than one type
of error; therefore, the sum of the errors may exceed the total of the subpopulation.

Adjustments Made to Prevalidated Payments. Table E-6 identifies the statistical
estimates of adjustments to prevalidated payments to correct errors in the entitlement
of the shipment.

  Table E-6. Adjustments Made to Correct Entitlement Errors
                (90-Percent Confidence Level)
    Lower Bound         Point Estimate        Upper Bound
          1,385                     1,772                2,159


We are 90-percent confident that DFAS prevalidated and paid between 1,385 and
2,159 out of 3,598 shipments records that contained inaccurate and incorrect
information.




                                            56
Appendix F. Sample Results
   We used statistical sampling to efficiently test aspects of the prevalidation process.
   This appendix provides detailed information about the testing results and provides
   details concerning the errors identified in each sample population for each of the
   internal control test conducted. This appendix also supports the discussion presented
   in finding A.

   Payment Requests Missing Information in MOCAS
   Control activities did not prevent incomplete payment requests from entering
   MOCAS and creating incomplete entitlement records. Incomplete information can
   include a missing contract number, shipment number, ACRN, CLIN/SLIN, and
   amount. We reviewed 68 sample payment requests identified as missing
   information. Fourteen payment requests were for financing payments, such as cost
   vouchers and performance-based payments. Table F-1 shows the 14 payment
   requests missing CLIN/SLIN information.

      Table F-1. Payment Requests Missing CLIN/SLIN Information in
                                MOCAS
        Contract       Shipment No.    ACRN      Missing CLIN/SLIN
   DAAB0700CJ606         PBPA041              FM      0509AA
   DAAB0702CJ204         PBPA033              BB      0301AA & 0303AA
   DAAB0795DE6040025     BVNM148              BE      0001BC
   F3060202C0212         BVN0036              AH      000108
   F336150123152         BVN0043              AE      0001
   HDTRA104C0009         BVN0020              AC      0001
   N0001403C0172         BVN0028              AC      000103
   N0002404C6101         PBPA011              AH      Multiple cited in contract
   N0016400G00070030     PBPA005              A3      0071
   N0042100G01430016     CFIA001              AA      0001AA, 0001AB, & 0001AC
   N6660402C2307         BVN0071              A9      000109
   N6833504C0039         BVN0017              AB      000201 & 000501
   W15QKN04C1092         BVN0013              AB      000102 & 0005
   W31P4Q04CR250         BVN0013              AC      0003AB

   Of the 68 sampled payment requests , 28 lacked information contained on the
   supporting payment request. Table F-2 shows the missing data elements for the
   28 sample payment requests.

            Table F-2. Entitlement Records Missing Information
                                      Invoiced
                        Shipment      ACRN –
        Contract           No.      CLIN/SLIN      Missing Data Element
   DAAA2193C0057         BVN0297        BX - 0063BX     ACRN
   DAAB0702CB213         PBPA013        AE - 0009AD     CLIN/SLIN



                                        57
       Table F-2. Entitlement Records Missing Information (cont’d)
                     Shipment                               Missing Data
     Contract            No.       ACRN - CLIN/SLIN            Element
DAAE0701DS0140161   PBPA007     AA - 0104AA, 0104AE,          CLIN/SLIN
                                0104XA, 0105AA, 0105AE,
                                0105AL, 0105BB, 0105CF,
                                0105DC, 0107AA, 0107AE,
                                0107AH, 0107AL, 0107BU,
                                0107XA, 0107XB, 0108AA,
                                0108AE, 0108AL, 0108AC,
                                0108CW, 0108DC, 0108DM,
                                0108DN, 0108DQ, 0301AA,
                                0301AB, 0301AE, 0301AL,
                                0401AA, 0401AC, 0401AE,
                                and 0402AL
DAAE0701DS0140169   PBPA007     AE - 0302AA                   CLIN/SLIN
DASG6203D00085006   BVN0008     AA – 0001                     CLIN/SLIN
F0470100D02030020   BVN0090     AJ – 0001                     CLIN/SLIN
F0470102C0011       PBPA013     BA - 0215CL, 0213CL,          CLIN/SLIN
                                0209CL, 0203CL, 0201CL,
                                0200CL, 0204CL, 0222CL,
                                0223CL, 0227CL, 0228CL,
                                0229CL, 0231CL, and 0235CL
F0863503D00010002   PBPA004     AA – 0107                     CLIN/SLIN
F4162497D80060028   BVN0031     AB AA-0001                    Wrong ACRN;
                                                              CLIN/SLIN
F4262003D00020042   PBPB002     AG - 0001AH                   CLIN/SLIN
FA704600D00020001   BVN0049     AM - 0001 and 0002            CLIN/SLIN
FA867505C0070       PBPB002     AT - 0007 and 600003          CLIN/SLIN
N0001900C0307       BVN0093     BN - 0001-0009; 0014-0017;    CLIN/SLIN
                                0019-0022 and 0100-0103
N0001904C0012       PBPA006     BB - 000102 and 000701        CLIN/SLIN
N0001904C0028       PBPA015     JA - 0008AA and 0008AB        CLIN/SLIN
N0001904C0569       PBPA006     AJ - 0101AB                   CLIN/SLIN
N0003905C0026       PBPA001     AF - 0001AF, 0003AF,          CLIN/SLIN
                                0006AF, 0007AF, and 0010AF
N0016704D00580001   BVN3536     AA – 0001                     CLIN/SLIN
N0017302C6027       BVN0077     AE - 0002, 0002AA, 0002AB     CLIN/SLIN
N0017804C1065       BVN0014     AA - 0001AA and 0001AB        CLIN/SLIN
N0038303CP026       BCS0001     AA - 0001AB                   ACRN
N0042101C0260       PBPB004     CF - 0302AA and CL - 0402AA   Wrong ACRN;
                                                              CLIN/SLIN
N6133903C0007       PBPA013     AJ – 000406                   CLIN/SLIN
N6523603D57230026   BVN0005     AA - 0026BP                   ACRN
N6600104D50250003   BVN0031     AA - 0001 & 0002              CLIN/SLIN
N6600104D50250007   BVN0003     AA - 0001 & 0002              CLIN/SLIN
W31P4Q05C0055       BVN0011     AA – 0001                     CLIN/SLIN
W56HZV04D03220005   PBPA005     AA - 0206AA, 0216AA,          CLIN/SLIN
                                0402AA and 0412AA



                                       58
   Accuracy of Entitlement Records
   Control activities did not ensure the entitlement record was accurate and complete.
   We reviewed 67 sample ARNs that failed prevalidation because the EUD system
   assigned entitlement denial codes. Of the 67 ARNs, entitlement personnel had not
   processed financing payments timely for 10 ARNs; therefore, MOCAS had not
   recorded the full amount available for liquidation at the time of prevalidation.
   Table F-3 shows the 10 ARNs with financing payments not loaded timely and the
   financing payment information.

                       Table F-3. Untimely Financing Payments
                                              Date of                        Delay In
                         Financing Payment Financin MOCAS                   Entering in
                            Loaded after        g        Entry               MOCAS
          ARN               Sample ARN       Payment     Date                 (days)
  HQ033720050691205D           PPRA013          3/15/2005   4/7/2005            23
  HQ033720050891522D           PPRA013          3/15/2005   4/6/2005            22
  HQ033720051091491D           PPRA006          4/15/2005   4/25/2005           10
  HQ033720051241499C           PPRA010          4/11/2005   5/5/2005            24
  HQ033920050780185D           PBPA015          3/14/2005   3/25/2005           11
  HQ033920050780197D           PBPA015          3/14/2005   3/25/2005           11
  HQ033920051380033D           PBPA017          5/13/2005   6/1/2005            19
  HQ033920051410292D           PBPA017          5/13/2005   6/1/2005            19
  HQ033920051450113D           PBPA017          5/13/2005   6/1/2005            19
  HQ033920051520093D           PBPA032          6/3/2005    6/14/2005           11

   Of 67 sample ARNs, the EUD system could not identify the work-in-progress line or
   the accounting system did not have sufficient funds on the work-in-progress line for
   24 ARNs. Table F-4 shows the 24 ARNs that could not match the accounting
   system because of system errors.

          Table F-4. System Errors Preventing Proper Match
                                                   Type of
                                     Shipment     Contract                 Accounting
      ARN             Contract        Number        Term                    Station
HQ033720050620281D   DAAE0703CS114            ATC0223       Performance      S20113
HQ033820050611099D   F1962898C0046            LAR0595       Progress         503000
HQ033720051470113D   DAAE2002C0134            GSD0149       Progress         S11116
HQ033720050740207D   DAAE2000C0045            GDC0084       Cost Voucher     S20113
HQ033920051450204D   DAAE3001D10030004        SPR0009       Progress         S28017
HQ033920050840778D   F3365701D00260004        MCA0042       Performance      668300
HQ033820051300303D   DAAH2303C0267            MMO0050       Progress         S23204
HQ033820051460145D   DAAH2302D03210015        MMO0093       Progress         S23204
HQ033720051320203D   DAAE0701DT0260010        LSP0001Z      Progress         S20113
HQ033720050690227D   DAAE3001C1101            AAA0077       Progress         S28017
HQ033720051530197D   DAAE3003C1121            KDI0026       Progress         S28017
HQ033820051520919D   F3365798D00020029        FWB0004       Progress         503000
HQ033920051050111D   DAAE0701DS0140118        OTC0663       Performance      S20113
HQ033720051550338D   DAAE0703DN1090001        IVF0058       Progress         S20113


                                         59
          Table F-4. System Errors Preventing Proper Match (cont’d)

                                                           Type of
                                            Shipment       Contract     Accounting
      ARN                  Contract          Number         Term         Station
HQ033720051030201D   DAAE3003C1121          KDI0023      Progress         S28017
HQ033720050820136D   DAAE0703CS114          ATC0235      Performance      S20113
HQ033720050720165D   DAAE0700CN001          IVF0613      Performance      S20113
HQ033920051620177D   DAAE0701DS0140118      OTC0772      Performance      S20113
HQ033920051520402D   DAAE0703CS023          TVS1938      Performance      S20113
HQ033720050620283D   DAAE0703CS114          ATC0224      Performance      S20113
HQ033720050720171D   DAAE0700CN001          LMW1798      Performance      S20113
HQ033720051200172D   DAAE0703CS114          ATC0266      Performance      S20113
HQ033920051520386D   DAAE0703CS023          TVS1930      Performance      S20113
HQ033720050840181D   DAAE0703CS114          ATC0241      Performance      S20113


   Of the 67 sample ARNs, DFAS Columbus incorrectly entitled eight ARNS for which
   the correct information was available on the payment request or in the related
   contract at the time of entitlement. Table F-5 shows the eight incorrectly entitled
   ARNs.

                       Table F-5. ARNs Entitled Incorrectly
                                           Shipment
        ARN                 Contract          No.                      Error
HQ033720050670047C     DAAB0701CC206         BVN0075       Accounting station should
                                                           be S28043
HQ033720051301176D     W52P1J04C0084         SNC0029       Accounting station should
                                                           be S28017
HQ033720051521501D     SP010002DNA050016     GHF0020       CLIN should be 0019AA
                                                           and quantity should be 14
HQ033720051610471D     FA810405G0003TY02     LYN0001       CLIN/SLIN should be 0001AA
HQ033820051401170C     N0014098DM3230800     BVN0015       ACRN should be AB
HQ033920050750896C     F336150295325         BVNB016       No CLIN or description on
                                                           Payment Request
HQ033920050840178D     DAAJ0994G00090032     WTH9078       Withhold not charged to the
                                                           CLIN on the original payment
                                                           request
HQ033920051311366C     F3365701C2002         BVN2029       ACRN should be CA


   Shipments with Canceled ARNs
   DFAS Columbus did not have adequate controls in place to prevent the canceling of
   ARNs because of inaccurately entitled shipments. Of 69 sample shipments with
   canceled ARNs, DFAS Columbus incorrectly entitled 22 shipments. Table F-6
   shows pertinent information about the 22 inaccurately entitled shipments with
   canceled ARNs.



                                       60
                      Table F-6. Shipments with Canceled ARNs
         Contract           Shipment No.            Entitlement Error
  DAAB0786DK0230446          ENC0029               Missing CLINs 0002AA and 0040AA
  DAAH2300D01480021          BVN0024               Removed CLIN 0002AA and left blank
  DASG6000C0087              BVN0077*              Payment request returned for insufficient funds
  DASG6002D00110023          BVN0065               Missing CLIN 0005
  DASG6003P0194              BVN0001Z              Missing CLIN 0001
  F4162402D70030005          BVN0032               Missing CLINs 0003 and 0007
  F4262001D0058SC48          BVN0010               ACRN changed from AU to BQ
  FA704600D00020170          BVN0017               Nonspecific SLIN AG
  FA867804C0024              BVN0025               Nonspecific SLIN 02
  HQ000602C0054              BVN1018               Incorrect Commitment Reference Number on
                                                   CLINs 0202, 0206AC, 0206AD, and 0206AE
  M6785400D10110058         BVN0004                Supplemental data contained an extra “0”
  N0001499D05020003         BVN0013                Nonspecific SLIN 03
  N0001903G0014YR14         BVN0002                Activity code “S3315A” in supplemental data
                                                   did not agree with the “000000” contract.
  N0002402C5100             AND0182                CLIN was L008 instead of CLIN 0010AA
  N0014097CG22              ACS0067Z               CLINs billed different than Payment Requested
  N6523600D78020280         BVN0029                Supplemental data contained an extra “0”
  N6523600D78120645         BVN0003                Nonspecific SLIN 01
  N6523602D78370012         BVN0002                Entitled CLIN 0004 instead of 0003
  SP010004D40830001         STN0049*               Amounts on the payment request and receipt
                                                   disagreed
  USZA2202D00170193         BVN0007                Missing CLINs 0307AA and 0407AE
  W56HZV04D03280002         SWT0007*               Recoupment calculated incorrectly
  W911SR04C0094             BVN0009                Commitment document number was missing
                                                   and the correction was missing the SLIN 02
  *Denotes a payment request incorrectly entitled more than once.


Entitlement Errors That Passed Prevalidation
Inadequate reviews by both entitlement and accounting technicians cause the
disbursement and posting of erroneously entitled shipments in the official
accounting records. Of the 67 sample shipments, DFAS Columbus personnel
entitled 33 shipments that had errors with the ACRN, line of accounting, or other
information, such as the quantity, vendor, or amount. Table F-7 shows the
33 shipments that required an accounting adjustment after DFAS prevalidated the
payment. DFAS had not identified the entitlement errors during prevalidation.




                                           61
                     Table F-7. Accounting Adjustments Required
                        on Previously Prevalidated Shipments
                                           Shipment
       ARN                  Contract          No.                    Error
HQ033820050970022C   DAAB0701DG0010048    BVN0025    Over billed ACRN AE and excluded
                                                     CLIN 0028
HQ033920050850183D   DAAB0702CJ204        MCK1871    Should have recouped ACRN BF
HQ033920050850186D   DAAB0702CJ204        MCK1872    Should have recouped ACRN BF
HQ033720050850079C   DAAD0501C0017        BVN0061    ACRN should be AA
HQ033820050640318C   DAAD1701D0004BG01    BVN0020    ACRN should be AB
HQ033720051440197D   DAAE0703DN1020001    SMG0326    Incorrectly charged quantity variance
                                                     line
HQ033920051120171D   DAAH0100C0108        PBPB019    Entitled before funding on ACRN CD
HQ033820051320324C   DASG6000C0097        BVN0104    Underpayment on original payment;
                                                     ACRN should be AX on second
                                                     payment
HQ033720051530267C   DASG6098C0001        BVN0138    Duplicate payment made in MOCAS
HQ033920050610352D   F0460682C1482        REFM001    Underpaid original Payment Request
HQ033820051520722P   F0470101C0001        PPRA002    Wrong ACRN
HQ033920050641042D   F0960303C0402        SAB0093    Under recoupment caused overpayment
HQ033720050760812C   F0960303D00951011    BVN0007    ACRN should be AB and AC
HQ033720051110514C   F0960303D00951062    SER1783    Wrong Property Accountability
                                                     Activity in line of accounting
HQ033720050780660C   F1962802F8162        BVN0071    ACRN should be L8
HQ033720050970661D   F3365701D20740002    MCA0086    ACRN should be AC
HQ033720051452277C   F4162403C1007        BVN0029    Line of accounting erroneously omitted
                                                     a “0” (zero)
HQ033720050840964D   F4260001C0025        REF0035    Under recoupment caused overpayment
HQ033920051461026C   F4262001D0058SC26    BVN0030    Wrong ACRN, adjust did not correct
HQ033920051390316D   FA810304C0075        TUD0001    Entitled to the wrong vendor
HQ033920051320612D   FA862004G40100004    COM0004    ACRN should be AB
HQ033720050640554C   FA862204F8001        BVN0010    ACRN should be AB
HQ033720051452006C   FA955004F0004        BVN0012    ACRN should be AC
HQ033920050641943C   HQ000604D00020002    BVN0016    ACRN should be AA and adjustment
                                                     should be CLIN 0002
HQ033920050740922D   M6785404D50160003    OTC0001    Overpayment; recoupment wasn't
                                                     calculated
HQ033820050620926D   MDA91193C0008        LAR0249    No ACRN on payment request or
                                                     receipt
HQ033920051062077C   N0003900D21010001    ADD2007    ACRN should be AJ
HQ033820050831299C   N0014001D0787Z529    BVN0032    ACRN charged wrong amount;
                                                     adjustment should include AK
HQ033820051240848C   N0014098DM3230927    BVN1101    Vendor returned duplicate payment;
                                                     ACRN should be AA




                                         62
                     Table F-7. Accounting Adjustments Required
                     on Previously Prevalidated Shipments (cont’d)
                                             Shipment
       ARN                  Contract           No.                          Error
HQ033720051583673D   N0016403D89070002         VBD0010      Vendor billed for more quantity than
                                                            received
HQ033820050922361D   N6133900D07120002         SPR0009      ACRN should be AJ
HQ033820051261283D   SP010000D40300030         PIE0013      Incorrectly charged quantity variance
HQ033820050762131C   USZA2202D00170138         BVN0013      Contract loaded in MOCAS with
                                                            incorrect accounting station



      Internal Controls Over Obligation Balances
      DoD did not maintain an adequate control environment to ensure that DoD activities
      recorded obligations timely and accurately in the official accounting systems. Of the
      68 sample ARNs, 15 did not have corresponding obligations entered in the
      accounting system before the prevalidation request or within 10 days of the
      Government incurring the obligation. Table F-8 shows the 15 sample ARNs with
      obligations not loaded timely in the accounting system.

                            Table F-8. Recording Obligations Timely
                                                                                      Obligation
                                                         Obligation      ARN          Recorded
              ARN                   Contract               Date          Date           Date
       HQ033920050630079D     DAAB0700CJ606               01/31/05      03/04/05        05/09/05
       HQ033720051250097D     DAAB0786CH007               03/31/05      05/05/05        06/16/05
       HQ033920051600046D     DAAB1500A10260001           05/04/05      06/09/05        06/28/05
       HQ033720050750114C     DAAD1302C0008               02/25/05      03/16/05        03/17/05
       HQ033820051620817C     DAAH0196C0027               12/02/04      06/13/05        07/11/05
       HQ033920050640888C     F0470100D02030052           08/25/04      03/12/05        03/16/05
       HQ033920050640892C     F0470100F5005               08/27/04      03/12/05        04/05/05
       HQ033920050720936D     F0960399D01090014           11/01/04      03/15/05        03/25/05
       HQ033920050923104D     F3460199D00020058           01/10/05       04/5/05        04/18/05
       HQ033920051620528C     FA852805D00110001           05/25/05      06/14/05        09/28/05
       HQ033820051230652C     N0014003D00066002           07/22/04      05/03/05        05/20/05
       HQ033720051552818D     N0016405P0482               04/29/05      06/05/05        06/08/05
       HQ033820051611464C     N0042102C3235               05/31/05      06/10/05        06/13/05
       HQ033820050632281C     N6523699D68090472           06/30/04      03/04/05        03/24/05
       HQ033820051623802C     W911SR04D00120001           01/31/05      06/13/05        06/14/05

      Of the 68 sample ARNs, accounting stations had not correctly obligated 37 ARNs at
      the ACRN/CLIN/SLIN level or the ULO balances were less than the amounts of the
      prevalidation requests. Table F-9 shows the 37 sample ARNs.




                                           63
                     Table F-9. Recording Obligations Accurately
                                                             Error in Recording the
       ARN                   Contract       Shipment No.           Obligation
HQ033720050690136C    DAAB0798DH5030035        BVN0018      Insufficient ULO. Funds
                                                            deobligated in 2003; new funds
                                                            had to be found
HQ033720050960125D    DAAE0701GN0010003        WTH9851      Zero ULO balance when
                                                            prevalidation approved,
                                                            causing $24,600 NULO
HQ033920050921177D    DAAK6096C3009            EAS0384      ARN prevalidated against
                                                            CLIN 1007; should have been
                                                            SLIN specific because CLIN
                                                            funded by 3 ACRNs (FH, FJ,
                                                            FK). CLIN had insufficient
                                                            ULO to pay this ARN;
                                                            prevalidation approved
                                                            erroneously against another
                                                            CLIN
HQ033920051330370D    DABL0103D1002009         STI0009      Did not record CLIN 2006FE;
                                                            previous canceled payments
                                                            not reversed
HQ033820051620817C    DASG6099C0075            BVN0122      Obligated incorrectly on
                                                            ACRN HT instead of ACRN
                                                            VN; contract modification was
                                                            not entered
HQ033820051180510C    DASW0104C0003            BVNC090      NULO balance ($5180)
                                                            required correction before
                                                            prevalidation request could be
                                                            approved
HQ033920050820429C    F0470100C8029            BVN9951      Did not record CLIN 5901
HQ033920050640888C    F0470100D02030052        BVN0024      No CLIN recorded or entitled
HQ033920050640892C    F0470100F5005            BVN0050      Did not record CLIN 0006
HQ033920050720936D    F0960399D01090014        KAE0058      Did not record CLIN 4004
HQ033720051590879C    F0960403D00080008        BVN0036      Did not record CLIN 1004;
                                                            previous canceled payments
                                                            not reversed
HQ033920051543603D    F1962802C0010            REFM082      Did not record CLIN 0104
HQ033720050950686C    F2960103C0192            BVN0020      Did not record CLIN 0001;
                                                            previous canceled payments
                                                            not reversed
HQ033820051621751C    F3361500D55420009        BVN0033      Did not record CLIN 0009;
                                                            previous canceled payments
                                                            not reversed




                                          64
               Table F-9. Recording Obligations Accurately (cont’d)
                                                            Error in Recording the
       ARN                Contract        Shipment No.            Obligation
HQ033720051180703C   F3361502C1193            BVN0049      Did not record CLIN 0002;
                                                           previous payment posted in
                                                           unpaid status twice
HQ033920050970621P   F3365700G40280265        PPRA026      No CLIN recorded or entitled
HQ033820051591592P   F3365700G40280314        PPRA020      No CLIN recorded or entitled
HQ033920051440858D   F3365701C0022            TSD0042      Did not record CLIN 2021;
                                                           previous canceled payments
                                                           not reversed
HQ033920051440871D   F3365701G50050026        SNC00572     Did not record CLIN B008;
                                                           funds moved to unpaid status
                                                           before receipt
HQ033720050970683D   F3460100G0006RU32        BVN0015      Did not record CLIN/SLIN
                                                           0003AA
HQ033720051520675C   F3460197D0423RJ15        BVN0116      Did not record CLIN/SLIN
                                                           6001AD; funds moved to
                                                           unpaid status before receipt
HQ033920051241105C   F3460199C0006            BVN0078      Did not record CLIN/SLIN
                                                           2001BE; funds moved to
                                                           unpaid status before receipt
HQ033920050923104D   F3460199D00020058        KAC0465      Did not record CLIN 1011
HQ033820050980731C   F4162403D86090054        BVN0019      Did not record CLIN 0003;
                                                           previous canceled payments
                                                           not reversed
HQ033820050700850C   F4262000D0029RJ20        BVN0024      Did not record CLIN/SLIN
                                                           0009AE
HQ033920050720592C   FA704600D00030149        BVN0055      Did not record CLIN/SLIN
                                                           0009AB; previous canceled
                                                           payments not reversed
HQ033720051230200D   FA820304M0260            ABS0001      Did not record CLIN 0001
HQ033820051410505D   FA852304C0066            PCA0001      Did not record CLIN 0001AB;
                                                           previous payment removed
                                                           funds erroneously
HQ033920051620528C   FA852805D00110001        BVN0016      Did not record CLIN 0019
HQ033720050840429C   FA865104D0428            BVNA071      No CLIN recorded or entitled;
                                                           funds moved to unpaid status
                                                           before receipt
HQ033820050620613C   FA945104C0045            BVN0008      Did not record CLIN 0004;
                                                           previous canceled payments
                                                           not reversed
HQ033720050680870D   H9223604C1002            IMP0105      Did not record CLIN 0001;
                                                           previous work in progress
                                                           charged to material line
HQ033920051391094C   HC104704C4055            BVN1129      Did not record CLIN 0104;
                                                           void payment returned to
                                                           unpaid not undelivered
HQ033820051180963D   N0001902D31570075        EPX0011      Did not record CLIN 0209


                                         65
               Table F-9. Recording Obligations Accurately (cont’d)
                                                            Error in Recording the
       ARN                Contract        Shipment No.            Obligation
HQ033920051610991D   N0001904C0069            IAC0005       Obligation at ACRN level
                                                            only. No obligation at CLIN
                                                            level (0003 for this ARN)
HQ033920050771535D   N0002402C5318            RSV0065       Did not record CLIN 0048.
                                                            Obligated at ACRN only
HQ033820050691884D   N0042100D03610003        REF0015       Obligated at ACRN level only.
                                                            No obligations at CLIN level
                                                            (0001, 0002, 0003, and 0004
                                                            for this Payment Request)

      Of the 68 sample ARNs, DFAS Columbus had incorrectly entitled 14 ARNs and the
      EUD system should have returned the ARNs to the paying office instead of the
      accounting station for rework. Table F-10 shows the 14 sample ARNs sent to the
      accountants for rework even though the ARN had entitlement errors.

     Table F-10. ARNs with Entitlement Errors Sent to Accountants for Rework
                                         Shipment         Error in Recording the
      ARN                Contract         Number                Obligation
HQ033720050702235C   SP070000D31800105    BVN0046       Blank CLIN
HQ033720050851582C   SP070000D31800273    BVN0015       CRN should be 7031204029N830
HQ033720050970683D   F3460100G0006RU32    EVN0015       Cost code should be 978400
HQ033720051021012C   N0014001DN642GE8G    BVN0010       CRN should be N4523A42649141
HQ033720051061416C   SP070000D31800283    BVN0011       Should have split between CRN
                                                        NMIPR049209813 and
                                                        BMDO01449931553
HQ033820050700850C   F4262000D0029RJ20    BVN0024       ACRN AH should be AE
HQ033820051020270C   DAAH0102CR190        BVN0070       CRN should be RB4KCR01RV
HQ033820051031257D   N0010404PCM38        CMR0001Z      CLIN should be 0001AA
HQ033820051230652C   N0014003D00066002    BVN0022       ACRN deobligated
HQ033820051340446C   DASG6099C0075        BVN0122       Blank CRN
HQ033920050820429C   F0470100C8029        BVN9951       ACRN ML should be QD
HQ033920050921177D   DAAK6096C3009        EAS0384       ACRN should be FH, FJ, and FK;
                                                        and Payment Request did not include
                                                        SLIN
HQ033920051031728C   N6133900D00010029    BVN0014       Blank CRN
HQ033920051110028C   DAAB07003L517        BVN0088       Blank CLIN and CRN




                                         66
Appendix G. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense for Business Transformation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Program Executive Officer, Enterprise Information Systems

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                           67
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
Senate Committee on Finance
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs, Committee on Oversight
  and Government Reform




                                          68
Under Secretary of Defense (Comptroller/Chief
Financial Officer) Comments




                      69
70
                                                                             Final Report
                                                                              Reference




                                                                             *1




                                                                             *2




1
    Tab A omitted because of length. Copies will be provided upon request.
2
    Tab B omitted because of length. Copies will be provided upon request.


                                                                  71
Deputy Under Secretary of Defense for Business
Transformation Comments




                      72
73
Department of Army Comments




                   74
75
Final Report
 Reference




Page 33




               76
77
Defense Finance and Accounting Service
Comments




                      78
79
80
81
82
83
84
85
86
87
88
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Carmelo G. Ventimiglia
George C. DeBlois
Jeffery D. Marshall
Sharon R. Roydes
Mackenzie B. Arnold
Matthew F. Bengs
Lisa L. Brown
Melissa J. Humerickhouse
Bradley D. Grubb
H. David Barton
Kandasamy Selvavel
Colonel William Kelley
Cecelia Miggins
Pamela S. Varner
Alejandra P. Rodriguez
Suellen Foth
Joseph Stickel
Erin Hart
